DOC OIG SAR 11-07.qxd   11/27/07   1:36 PM   Page i




                                                   IG’s

                                               Semiannual

                                                  Report

                                               to Congress



                                                 September 2007

DOC OIG SAR 11-07.qxd   11/27/07   1:36 PM   Page ii
DOC OIG SAR 11-07.qxd      11/27/07   1:36 PM   Page iii




              September 30, 2007

              The Honorable Carlos M. Gutierrez
              Secretary of Commerce
              Washington, D.C. 20230


              I am pleased to submit this Semiannual Report to Congress, which details the work and activities of the Office
              of Inspector General for the 6-month period April 1, 2007, through September 30, 2007. The Inspector
              General Act of 1978 requires that we prepare this report twice each year to summarize our assessments of
              Commerce operations and that you transmit it, with any comments you may wish to add, to Congress within
              30 days of receiving it.

              On June 29, 2007, Johnnie Frazier retired after 37 years at the Department of Commerce, including nearly
              three decades with the Office of Inspector General and nine years as Inspector General. OIG would like to
              acknowledge Mr. Frazier’s extraordinary dedication to public service during his lengthy federal career, and
              express our appreciation for the many valuable contributions he made to this organization, the Department,
              and the inspector general community. The office is continuing its efforts to promote integrity, efficiency, and
              effectiveness in departmental programs and operations as we await the confirmation of a new inspector general.

              Consistent with prior reporting periods, our work over the last six months addressed a number of the major
              operational and programmatic priorities of the Department. We maintained our focus on information security –
              a top challenge for Commerce and the federal government as a whole – completing assessments under the Federal
              Information Security Management Act, as well as reviews of the Census Bureau’s IT security controls and property
              management policies for the thousands of laptop computers used in its field and headquarters operations.

              During this period, we also began to escalate our oversight of Census’s preparations for the 2010 decennial,
              completing a review of update/enumerate test operations on the Cheyenne River Reservation in South Dakota
              and an evaluation of the bureau’s progress in readying its workers’ compensation program for the decennial. In
              addition, we have initiated reviews of several aspects of the 2008 dress rehearsal and performance audits of two
              multimillion-dollar contracts that are integral to decennial operations.

              I thank you and your staff for your continued support of the work of this office, and the generous assistance
              provided by senior managers throughout the Department during this period of transition.


              Sincerely,



              Elizabeth T. Barlow
              Acting Inspector General
DOC OIG SAR 11-07.qxd   11/27/07   1:36 PM   Page iv
DOC OIG SAR 11-07.qxd      11/27/07       1:36 PM        Page v




                                                                  CONTENTS

              Acting IG’s Message to Congress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


              Major Challenges for the Department . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

                   Control the Cost and Improve the Accuracy of the Decennial Census . . . . . . . . . . . . . . . . . . . . . . . . . . 3

                   Strengthen Department-Wide Information Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

                   Effectively Manage Departmental and Bureau Acquisition Processes . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                   Strengthen Internal Controls over Financial, Programmatic, and Business Processes . . . . . . . . . . . . . . . 8

                   Ensure that USPTO Uses Its Authorities and Flexibilities as a Performance-Based Organization

                   to Achieve Better Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                   Effectively Manage the Development and Acquisition of Environmental Satellites . . . . . . . . . . . . . . . . 10

                   Promote U.S. Exports and Fair Competition in International Trade . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                   Effectively Manage NOAA’s Stewardship of Ocean and Living Marine Resources . . . . . . . . . . . . . . . . 13

                   Aggressively Monitor Emergency Preparedness, Safety, and Security Responsibilities . . . . . . . . . . . . . . 14

                   Enhance Export Controls for Dual-Use Commodities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


              Agency Overviews
                   Economic Development Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

                   Economics and Statistics Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                   International Trade Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

                   National Institute of Standards and Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

                   National Oceanic and Atmospheric Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

                   United States Patent and Trademark Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

                   Department-Wide Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47


              Office of Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

                   Office of Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

                   Other OIG Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52

                   Tables and Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

                   Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60


              Types of OIG Work Products . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 62

DOC OIG SAR 11-07.qxd   11/27/07    1:36 PM    Page vi




                                                                                                                         Photo by OIG
                                   This lighted vault is one of the Herbert C. Hoover Building’s many beautiful architectural features.
DOC OIG SAR 11-07.qxd      11/29/07    10:38 AM    Page 1




                      ACTING INSPECTOR GENERAL’S

                         MESSAGE TO CONGRESS

              On behalf of the Department of Commerce Office               prevent unauthorized data access. On the latter
              of Inspector General, I am pleased to submit our             point, we determined they did not.
              Semiannual Report for the second half of fiscal
              year 2007.                                                   We also found that Census property management
                                                                           personnel gave inadequate attention to the laptop
              A considerable amount of the work completed                  inventory, a situation the bureau has since rectified.
              during this period was dictated by the Federal               Likewise, the Department’s recent initiative to equip
              Information Security Management Act, which                   all Commerce computers with “full disk” encryption,
              requires that we annually assess Commerce’s efforts to       which secures all of a computer’s data, should ensure
              safeguard data processed by its computer systems and         that information on Census laptops is now protected.
              networks. Meeting FISMA standards has proven a
              difficult and costly challenge for many federal              Oversight of Census 2010 Activities
              agencies. In FY 2007, the government spent
              $5.2 billion to secure its total IT investment of            With roughly 2 years remaining until the 2010
              approximately $64 billion.1 Yet progress has been            decennial census, we have escalated our oversight of
              uneven across the board, and Commerce—while                  the bureau’s preparations, with reviews under way of
              making significant headway—has been among those              the 2008 dress rehearsal and of two multimillion-

              We await the confirmation of a new inspector general and look forward to continuing the
              productive partnership we have enjoyed with the Department and the improvements in
              Commerce operations it has yielded.

              that continue to struggle to adequately protect              dollar IT contracts. During this semiannual period,
              systems and information from compromise. Our                 we completed an evaluation of the bureau’s 2006
              annual FISMA work has been important in gauging              update/enumerate test on the Cheyenne River
              the nature and extent of problems and progress at the        Reservation and Off-Reservation Trust Land in South
              various operating units, and for offering solutions to       Dakota (see page 25). We found, among other things,
              achieve the Department’s full compliance with the            that poor maps and incorrect address lists made it
              law. (See pages 30, 36, and 41.)                             difficult for enumerators to find housing units and that
                                                                           changes to the questionnaire designed to improve the
              Complementing our FISMA evaluations during this              count had little impact on the final numbers.
              semiannual period were our reviews of IT security
              and property management at the Census Bureau in              We also followed up on Census’s efforts to develop a
              relation to the loss of several hundred Census laptop        workers’ compensation strategy that addresses the
              computers, many of which contained sensitive data.           unique challenges posed by temporary decennial
              (See page 21.) Initiated at the request of Secretary         hires who are hurt on the job—a strategy we
              Gutierrez, our reviews sought to determine how the           recommended in a 2006 Department-wide review of
              breakdown in property management occurred and                workers’ compensation. We found that the bureau as
              whether the laptops had adequate security controls to        yet has no such strategy in place. (See page 29.) With
                                                                           dress rehearsal activities already under way, Census
                                                                           runs the risk of seeing its injured, short-term
              1
                  http://www.whitehouse.gov/omb/egov/documents/            decennial employees become long-term benefits
                  FY07ITBudgetRollout.pdf                                  recipients unless it quickly implements a program


                                                                       1
DOC OIG SAR 11-07.qxd   11/27/07     1:36 PM    Page 2




              Acting Inspector General’s Message to Congress                          September 2007—Semiannual Report to Congress



              that offers suitable job opportunities for those who          senior Department officials as these reviews progress
              are able to return to work.                                   to facilitate their efforts to address any shortcomings
                                                                            that may be deemed critical.
              Other Areas of Focus
                                                                            OIG Leadership in Transition
              Finally, audits of Commerce financial assistance
              recipients identified millions of dollars in questioned       It has been a privilege to serve as acting inspector
              costs and funds to be put to better use. (See pages           general during the final 3 months of this reporting
              17-19 and 39.) And our evaluation of the National             period, following the retirement of Johnnie Frazier—
              Export Strategy—which the Department takes the                our IG for the past 9 years, and a highly regarded
              lead in developing—determined that it lacks the               Commerce employee for his entire 37-year career in
              specificity required to foster integrated government-         public service. I wish to acknowledge with gratitude
              wide trade promotion activities. (See page 33).               the spirit of collaboration that has marked our
                                                                            interactions with Commerce officials as we’ve
              Work under way in other areas—such as oversight of            conducted our work during this time of transition.
              the GOES-R satellite program and NOAA’s                       We await the confirmation of a new inspector general
              management of the Fisheries Finance Loan                      and look forward to continuing the productive
              Program—is pointing to a number of actions needed             partnership we have enjoyed with the Department
              to improve program operations and protect the                 and the improvements in Commerce operations it
              federal investments at stake. We are consulting with          has yielded.




                                                                        2
DOC OIG SAR 11-07.qxd   11/27/07   1:36 PM   Page 3




                                 MAJOR CHALLENGES

                                FOR THE DEPARTMENT

              This section highlights the Top 10 Management                Challenge 1
              Challenges that faced the Department at the close of
              this semiannual period. Each challenge meets one or          Control the Cost and
              more of the following criteria: (1) it is important to
              the Department’s mission or the nation’s well-being,
                                                                           Improve the Accuracy
              (2) it is complex, (3) it involves sizable resources         of the Decennial Census
              or expenditures, or (4) it requires significant
              management improvements. Because of the diverse              The Census Bureau’s redesigned decennial plan,
              nature of Commerce activities, these criteria                established after the 2000 census, is heavily
              sometimes cut across bureau and program lines.               dependent on automating critical field operations
              Experience has shown that by aggressively addressing         to accurately count the nation’s population
              these challenges, the Department can enhance                 within budget. After conducting a series of tests
              program efficiency and effectiveness; eliminate              throughout the decade, the bureau has begun a
              serious operational problems; decrease fraud, waste,         “dress rehearsal” or dry run of the upcoming 2010
              and abuse; and achieve substantial savings.                  census, which will produce an unofficial count for
                                                                           two sites: San Joaquin County, California, and eight
                                                                           counties surrounding Fayetteville, North Carolina.
                TOP 10 MANAGEMENT CHALLENGES                               The local census office for each site opened in
                                                                           April 2007.
                 1. Control the cost and improve the accuracy
                    of the decennial census.                               During the past year, we monitored various aspects
                 2. Strengthen Department-wide information
                of the bureau’s decennial operations: we com­
                    security.
                                             pleted our evaluation of the 2006 test of
                                                                           update/enumerate at the Cheyenne River
                 3. Effectively manage departmental and bureau             Reservation and conducted a follow-up review of
                    acquisition processes.                                 the bureau’s progress in readying its workers’
                 4. Strengthen internal controls over financial,           compensation program for the 2010 decennial (see
                    programmatic, and business processes.                  pages 25 and 29). We also have initiated two
                 5. Ensure that USPTO uses its authorities and             reviews of the 2008 dress rehearsal, one assessing
                    flexibilities as a performance-based                   the effectiveness of address canvassing procedures
                    organization to achieve better results.                in improving the accuracy of the address list and
                                                                           maps, and the other evaluating the capabilities and
                 6. Effectively manage the development and

                                                                           performance of the technology that supports this
                    acquisition of environmental satellites.

                                                                           operation. And we are auditing two multimillion-
                 7. Promote U.S. exports and fair competition              dollar contracts: Field Data Automation Collection
                    in international trade.                                (FDCA) and the Decennial Response Integration
                 8. Effectively manage NOAA’s stewardship of               System (DRIS), which are being used to acquire IT
                    ocean and living marine resources.                     devices and services that are critical to the success
                 9. Aggressively monitor emergency preparedness,           of the reengineered census.
                    safety, and security responsibilities.
                10. Enhance export controls for dual-use
                    commodities.



                                                                       3
DOC OIG SAR 11-07.qxd   11/27/07     1:36 PM    Page 4




              Major Challenges for the Department                                           September 2007—Semiannual Report to Congress




              Counting American Indians                                       Improving the Workers’ Compensation
              on Reservations                                                 Program at Census
              Counting American Indians living on reservations                                                In our March 2006
              such as the one selected for the 2006 test of                                                   Semiannual Report (page 39­
              update/enumerate can be challenging because these                                               41), we discussed the results
              sites often contain many unnamed streets and                                                    of our review of Commerce’s
              unnumbered houses and encompass large, rural areas                                              workers’ compensation pro­
              punctuated by small communities. In addition,                                                   gram,2 which included recom­
              multiple families often share a single housing unit,                                            mendations that the Census
              and getting an accurate count of the entire household                                           Bureau and the Department
              is difficult. In update/enumerate census-takers go                                              develop a comprehensive
              door to door to collect population information and                                              workers’ compensation pro­
              update address lists and maps. We evaluated the test’s                                          gram for the 2008 dress
              conduct and outcomes, particularly with regard to                                               rehearsal and the 2010
              the impact of a new query on the census form                                                    decennial. The bureau paid
              designed to improve the count of all household                                                  almost $14.2 million in
              members (“within-household coverage”). We looked                                                workers’ compensation bene­
              at the success of the overall operation in accurately                                           fits during the 2000 census
              enumerating the reservation population.                           www.census.gov/2010census/dx- and continues to pay
                                                                                            261-cafinalnr.pdf
                                                                                                              millions of dollars to
              Overall, we found the new query had little impact on                                            decennial workers still on the
              reservation enumerations. We also found many                    rolls. The unique nature of intermittent work at
              problems caused by the poor quality of Census maps              Census complicates administration of the program,
              and address list information collected during the               so we urged the bureau and the Department to
              address canvassing operation, which preceded                    develop a strategy to contain these costs for the
              update/enumerate, and Census’s decision not to                  upcoming decennial.
              equip enumerators with GPS navigation tools in this
              geographically challenging environment. Given that              During this semiannual period we assessed the
              Census did little to test alternative enumeration               bureau’s progress in implementing our 2006
              methods, we question whether the bureau devoted                 recommendations for developing a program,
              adequate time and attention to the 2006 effort.                 identifying ways to contain related costs for the 2008
                                                                              dress rehearsal and 2010 decennial operations,
              With the countdown to the 2010 census accelerating,             returning current claimants to work, when feasible,
              the bureau’s time for modifying plans and ensuring              and implementing training and other management
              an accurate, cost-effect count of all Americans is              controls and oversight to minimize unnecessary
              growing short. We recommended that Census, at the               workers’ compensation costs.
              very least, give enumerators usable, legible maps and
              sufficiently detailed address lists on a consistent basis       We found the bureau had yet to implement a strategy
              and consider giving enumerators a GPS device for                for returning current claimants to work or for
              navigation—either the handheld computer slated for              managing a workers’ compensation program tailored
              Census 2010 or an inexpensive off-the-shelf model.              specifically to the staffing challenges posed by
              This latter step would go a long way toward                     decennial operations. Census officials have recently
              improving the accuracy and efficiency of                        advised us they’ve taken preliminary steps to return
              update/enumerate. We further recommended                        some claimants to work and have reached internal
              assigning a senior headquarters official specific               agreement on a regionally based return-to-work
              responsibility for improving 2010 American Indian
              enumeration efforts. (See page 25.)                             2
                                                                                  Management of Commerce’s Federal Workers’ Compensation
                                                                                  Program Needs Significant Improvement, IPE-17536



                                                                          4
DOC OIG SAR 11-07.qxd   11/27/07    1:36 PM    Page 5




              September 2007—Semiannual Report to Congress                                         Major Challenges for the Department



              program and an integrated program strategy. The                 Challenge 2
              bureau must now work with the Department’s
              human resources office and with Labor Department                Strengthen Department-Wide
              officials to finalize and implement its strategy. It must
              also identify the resources needed to handle the
                                                                              Information Security
              anticipated caseload of workers injured during 2010
              decennial operations. (See page 29.)                            The continuing expansion of information technology
                                                                              means federal agencies face ever-increasing challenges
                                                                              in performing their missions while providing for the
                                                                              security of their sensitive information. Since
              Assessing the 2008 Address
                                                                              enactment of FISMA in 2002, agencies have spent
              Canvassing Dress Rehearsal                                      millions of dollars to improve the security of
                                                                              information on their computer systems and shared
              The dress rehearsal is a final opportunity to ensure            via the Internet. Yet weaknesses persist and breaches
              that decennial components work together as planned.             continue. At the Department of Commerce, IT
              We are currently evaluating the address canvassing              security has been reported as a material weakness
              portion of dress rehearsal, which took place from               under the Federal Managers Financial Integrity Act
              May through June 2007.                                          since 2001.

              During address canvassing, temporary staff equipped             The system security certification process is supposed
              with handheld computers go into the field to verify,            to provide officials with complete, accurate, and
              update, add, or remove addresses; add and delete                trustworthy information on a system’s security status
              streets to correct computer maps; and annotate                  so they can make timely, credible, risk-based
              address locations on the maps. The operation                    decisions on whether to authorize operation. Our
              produces an updated, comprehensive file of addresses            reviews of the Department’s certification and
              and physical locations where people live or stay. We            accreditation (C&A) packages continue to find a
              are assessing whether fieldworkers consistently                 process that does not adequately identify and assess
              followed procedures and made appropriate                        needed security controls. As a result, authorizing
              corrections on the handheld computer, and whether
              the redesigned quality control component improved
              the quality of the address list.                                           Why Is C&A Important?
                                                                               Certification is a comprehensive assessment of
              In a separate review, we are looking at the technology           security controls implemented in a computer
              supporting the operation. Our observations thus far              system. It determines whether controls are
              suggest that key automation capabilities have greatly            implemented correctly, operating as intended,
              improved since the 2004 and 2006 site tests. But we              and meeting the security requirements for the
              observed other problems. For example, handheld                   system. Through the formal assessment of
              computer functions frequently froze, processing of               controls, the system certifier identifies any
              large address lists was slow, and help desk support for          vulnerabilities that have not been eliminated by
              resolving users’ computer problems was inadequate.               security controls.
              The bureau and its FDCA contractor are aware of
              these problems and are working to resolve them. We               Accreditation is management’s formal authori­
              will detail our findings and recommendations in the              zation to allow a system to operate. It includes an
              next semiannual report.                                          explicit acceptance of the risks posed by any
                                                                               identified remaining vulnerabilities. Through
                                                                               accreditation, senior agency officials take
                                                                               responsibility for the security of systems they
                                                                               manage and for any adverse impacts should a
                                                                               breach in security occur.




                                                                          5
DOC OIG SAR 11-07.qxd   11/27/07     1:36 PM    Page 6




              Major Challenges for the Department                                       September 2007—Semiannual Report to Congress



              officials do not have the information they need to             certification agents and the authorizing official
              make sound accreditation decisions.                            without adequate information about remaining
                                                                             vulnerabilities. (See page 45.) Therefore, we also
              Beginning in FY 2005, Commerce’s Office of the                 recommended that USPTO, which submits its
              Chief Information Officer (OCIO) instituted a                  performance and accountability report separately,
              quality assurance process that involved reviewing              again report IT security as a material weakness.
              C&A packages for agency (as opposed to contractor)
              systems, working with the bureaus to eliminate noted           Senior management officials in the Department and
              deficiencies, and forwarding to OIG packages                   USPTO are keenly aware and supportive of the need
              considered acceptable for FISMA review. For FY                 for improving the IT security program. The
              2007, we received packages for eight agency systems            Department CIO has placed a great deal of emphasis
              reviewed by OCIO as of our cutoff date in early June.          on improving C&A and is taking significant actions
                                                                             to improve the process. Likewise, USPTO’s CIO has
                                                                             devoted considerable personal attention and
              FY 2007 FISMA Review                                           resources to improving C&A. These efforts
                                                                             demonstrate a high level of commitment;
              We looked at a total of six C&A packages—three of              unfortunately, their benefits have yet to translate into
              which had been reviewed by OCIO in FY 2007; one                C&A processes that consistently produce packages
              reviewed in FY 2006 but sent to us late in the fiscal          showing adequate implementation of the required
              year; and two contractor systems, which had not                baseline level of security for the Department’s more
              undergone OCIO’s quality review. We assessed all               than 300 IT systems.
              components of each package and met with agency
              and contractor staff to discuss apparent omissions or
              clarify discrepancies in the documentation and gain            Lost Laptops Prompt Assessment of IT
              further insight into the extent of the security controls       Security at Census
              assessment. We gave particular weight in our review
              to evidence supporting the rigor and completeness of           The widely publicized loss of hundreds of Census
              the assessment.                                                laptops between 2001 and 2006 prompted our office,
                                                                             at the request of Secretary Gutierrez, to assess the
              We concluded that only two of the six packages                 bureau’s IT security controls for protecting personally
              adequately complied with FISMA, OMB policy,                    identifiable information, along with the bureau’s
              NIST guidelines, and agency IT security policy. Both           property management policies and practices (see page
              were for agency systems. But we noted continued                21). Our assessment of the security controls focused
              improvement in security plans for all the systems,             on the laptop computers used by about 5,500 Census
              particularly in the identification of system                   field representatives to conduct censuses and surveys
              components. We also found improvement in the                   prior to implementation of full disk encryption. We
              assessment of security controls in the two compliant           found that personally identifiable information could
              systems. However, the remaining four systems had               be recovered from Census’s lost or stolen laptops
              serious deficiencies in their controls assessment,             using software tools available on the Internet. Given
              particularly in the testing of operational and technical       how the laptops are used in the field, it is likely that
              controls. (See pages 30, 31, and 41.) That being the           some were not encrypted when lost or stolen, leaving
              case, we again recommended IT security be reported             confidential information readily accessible. Our
              as a material weakness within Commerce.                        report identifies additional IT security weaknesses
                                                                             that further increase risk to personally identifiable
              Two USPTO packages were included in our review                 information.
              sample—one for an agency system and one for a
              contractor system. Both lacked sufficient evidence to          Census has taken significant steps to improve IT
              confirm that operational and technical controls are in         security and better protect its sensitive information,
              place and operating as intended, leaving the                   and has been extremely responsive in correcting the


                                                                         6
DOC OIG SAR 11-07.qxd   11/27/07   1:36 PM    Page 7




              September 2007—Semiannual Report to Congress                                                 Major Challenges for the Department



              IT security weaknesses we identified. However, in an                   funding contracts, preparing and maintaining cost
              era of increasing IT security requirements and highly                  estimates, performing effective market research,
              constrained resources, the bureau faces considerable                   ensuring full and open competition whenever
              challenges in carrying out its IT security program.                    possible, using earned value management to measure
                                                                                     progress, establishing effective award fee plans, and
              The Department has also taken several significant                      selecting the appropriate contract types.
              steps to secure personally identifiable information: it
              required that all Commerce laptops be fully                            Continuity and consistency in acquisition
              encrypted during FY 2007 and selected a product for                    management and oversight are essential to ensuring
              implementing two-factor authentication, which uses                     the government timely and cost-effectively gets what
              a randomly generated pass code, along with the user’s                  it pays for especially when making complex and
              password, to control access to Commerce networks                       costly acquisitions. With that in mind, Commerce
              from remote locations. In addition, it established an                  must ensure that high turnover in upper
              Identity Theft Task Force of senior officials to ensure                management and other key acquisition positions at
              rapid, appropriate response to actual or potential                     the Department and several of its agencies does not
              data breaches involving personally identifiable                        affect the quality of the procurement process.
              information.
                                                                                     In addition, the Department has had a difficult time
                                                                                     achieving discipline in the acquisition process over
                                                                                     the past few years. Senior management must take a
              Challenge 3                                                            serious look at the planning and execution processes
                                                                                     for procurements and ensure agencies have the ability
              Effectively Manage Departmental                                        to promptly hire and adequately train qualified
                                                                                     acquisition staff.
              and Bureau Acquisition Processes
              Commerce spends nearly $2 billion a year to procure
                                                                                     OIG’s Efforts to Improve Contracting
              goods and services so management and oversight of
              the processes used must be superior. Past OIG audits                   Oversight
              and evaluations have identified improvements the
              Department needs to implement to fortify the                           In FY 2006, OIG established a contract audits
              acquisition process. These include documenting                         division to oversee Commerce’s acquisition activities.
              program needs, validating requirements, fully                          The division will monitor the Department’s most
                                                                                     significant procurements on a continuing basis and
                                                                                     conduct audits of those contracts as appropriate. The
                                                                                     contract audits team will also scrutinize the
                                                                                     Department’s revision of departmental and bureau
                                                                                     procurement policies to ensure they mirror current
                                                                                     federal acquisition regulations and Office of
                                                                                     Management and Budget circulars. In its reports, the
                                                                                     team will recommend best practices and innovative
                                                                                     approaches the Department should adopt.

                                                                                     The contract audits division’s initial area of emphasis
                                                                                     has been the Census Bureau’s procurement of
                                                                                     products and services to support the 2010 decennial
                                                                                     census. In April 2007, we began the first of a series of
                                                       http://oam.ocs.doc.gov/       audits of the FDCA and DRIS contracts. FDCA is
                                                                                     an effort to automate field data collection and
                                                                                     provide logistics, training, and help desk support for


                                                                                 7
DOC OIG SAR 11-07.qxd   11/27/07     1:36 PM    Page 8




              Major Challenges for the Department                                      September 2007—Semiannual Report to Congress



              12 regional centers, more than 450 local census                tasks performed to maintain and repair data buoys
              offices, and up to 500,000 field staff who will                and other observation platforms for marine weather
              conduct the decennial census. DRIS is intended to              forecasting. We expect to issue a report on this review
              standardize and integrate data collected via paper             during the next semiannual period.
              census forms, handheld computers, telephone
              interviews, and other methods. These two contracts
              have a combined value of $1.1 billion, representing
              about 9.5 percent of the $11.5 billion in total                Challenge 4
              estimated costs for the 2010 decennial census. The
              first audit of these contracts will determine whether          Strengthen Internal Controls over
              (1) the prime contractors’ data deliverables were on
              time and of acceptable quality, (2) the contracting
                                                                             Financial, Programmatic, and
              officers can promptly adjust the contract cost                 Business Processes
              estimate to account for changes in cost and schedule,
              and (3) both contracts contain effective award fee             To ensure operations are effective, efficient, and in
              plans. In future audits, we will review the contractors’       compliance with laws and regulations, agencies
              costs for equipment and materials, their management            implement internal controls. These steps also make
              of subcontractors, and contactor surveillance.                 certain that financial reporting is reliable and assets
                                                                             are safeguarded from waste, loss, or misap­
              In addition to its audit of the FDCA and DRIS                  propriation.
              contract, the contract audits division is currently
              monitoring several high-profile contracts within the           In the years since passage of the 1990 Chief Financial
              Department, including the $200 million 2010                    Officers Act, Commerce has been working to fix
              Census Communications Campaign contract. In                    financial management problems, including
              anticipation of conducting an audit, we are                    overhauling accounting practices and consolidating
              evaluating the bureau’s contract administration,               several financial systems into one. The result has been
              focusing on whether the contractor charges                     a more integrated system designed to give agency
              appropriate labor rates and submits status reports on          managers current, accurate information.
              costs and its progress against the program’s schedule.
              In June 2007, division staff met with the contracting
              officer for that procurement to informally review the
              processes the bureau used to solicit proposals and
              make the award.
                                                                                                                http://home.commerce.gov/ofm/



              National Data Buoy Center                                      In FY 2006, agencies began implementing new
                                                                             internal accounting controls required by OMB’s
              OIG is also examining a large contract administered            revised Circular A-123, and since FY 2004 they have
              by the National Data Buoy Center, a part of the                had to issue audited financial statements within
              National Weather Service that designs, develops,               45 days of the fiscal year’s close. Commerce has
              operates, and maintains a network of data-collecting           met this deadline each year since 2004, and has
              ocean buoys and coastal stations. In 2005, the center          continued to receive a clean opinion on its
              awarded a 5-year contract with potential for five 1­           consolidated statements.
              year extensions worth up to $500 million for
              technical services support for its marine observation          However, despite positive efforts made by the
              network. Currently, an OIG inspection team is                  Department, the FY 2006 financial statement audit
              reviewing the contract’s structure and management              found that continued improvements are needed in its
              by the National Oceanic and Atmospheric                        IT general control environment. Commerce also
              Administration, including oversight of the associated          needs to ensure that the internal controls for programs


                                                                         8
DOC OIG SAR 11-07.qxd   11/27/07     1:36 PM    Page 9




              September 2007—Semiannual Report to Congress                                          Major Challenges for the Department



              and business practices provide reasonable assurance              Evaluating Program and Accountable
              that operations are effective and efficient and are
                                                                               Property Controls
              consistent with applicable laws and regulations.
                                                                               Because the design and implementation of program
                                                                               and property controls can significantly impact the
              Establishing a Blueprint for Sound                               effectiveness of departmental operations, these
              Management of New NTIA Programs                                  areas are an important focus of our audit and inspec­
                                                                               tion work.
              The Digital Television Transition and Public Safety
              Act of 2005 requires the Federal Communications                  Our recent audit of EDA’s revolving loan fund pro­
              Commission to auction recovered analog spectrum                  gram revealed weak agency oversight, persistent
              and deposit the proceeds into a special fund. A por­             problems, and millions in funds to be put to better
              tion of the proceeds will be used to fund several new            use. EDA management responded with an action
              programs within the National Telecommunications                  plan that assigns responsibility of the program to a
              and Information Administration (NTIA). Under the                 single individual who can be held accountable for its
              act, NTIA, one of the Department’s smaller agencies,             operations, lays out a time frame with specific mile­
              is slated to manage up to nine new programs, two of              stones addressing known problems as well as
              which have potential combined budgets totaling                   establishing performance metrics that will allow sen­
              $2.5 billion (a grant program for public safety inter­           ior management to better monitor the program.
              operable communications and a converter box                      Since the report was issued, EDA has partnered with
              coupon program).                                                 OIG to provide single audit training for EDA staff
                                                                               involved in the management of revolving loan funds.
              Successfully implementing these new programs is a
                                                                               During this semiannual period, we completed an
              significant management challenge for the
                                                                               audit of the Census Bureau’s accountable property
              Department. We are sharing our expertise with
                                                                               management policies and practices. We found the
              NTIA to help it design strong, well-structured pro­
                                                                               bureau had made considerable progress in correcting
              grams that minimize the opportunities for fraud.
                                                                               weaknesses by implementing initiatives directed by
              During this period, we presented information on fed­
                                                                               Commerce and on its own but still needs to make
              eral audit requirements, cost principles, and
                                                                               further improvements. (See page 23.)
              matching share requirements at a June NTIA public
              meeting and at September workshops for the
                                                                               We recently initiated a review of accountable person­
              56 states and territories receiving more than
                                                                               able property at USPTO. We plan to issue a report of
              $968 million in grants to improve interoperable com­
                                                                               our findings during the next semiannual period.
              munications of public safety agencies, including fire
              and police departments and emergency medical
              teams. In addition, Congress has enacted a new
              statute requiring OIG to conduct an annual assess­
              ment of the management of the public safety                      Challenge 5
              interoperable communications program and to con­
              duct financial audits over the next 4 years of a
                                                                               Ensure that USPTO Uses Its
              representative sample of at least 25 states or territories       Authorities and Flexibilities as a
              receiving the public safety grants.
                                                                               Performance-Based Organization
              In August 2007, NTIA awarded a contract to IBM                   to Achieve Better Results
              for digital-to-analog converter box coupon program
              services. In the next semiannual period we plan to               Since the Patent and Trademark Office Efficiency Act
              review the contract and develop audit plans to help us           transformed USPTO into a performance-based
              evaluate the implementation of this program.                     organization over 7 years ago, OIG has devoted sig­


                                                                           9
DOC OIG SAR 11-07.qxd     11/27/07      1:36 PM      Page 10




              Major Challenges for the Department                                                  September 2007—Semiannual Report to Congress



              nificant resources to oversight of the agency. We have                    mise of sensitive patent information. Thus, we
              issued nearly a dozen reports examining USPTO pro­                        have initiated an audit of accountable property at
              gram, operational, and administrative issues.                             the agency.

                                                                                        The long-standing and growing backlog highlights
                                                                                        other issues for USPTO and OIG attention: the need
                                                                                        to expedite a fully electronic patent examination
                                                                                        process and to carefully monitor the agency’s billion-
                                                                                        dollar investment in high-risk time and materials and
                                                                                        award fee contracts for related information technolo­
                                                                                        gy services. OIG may conduct reviews of selected
                                                                                        USPTO contracts to ensure vendors are complying
                                                                                        with contract terms and conditions, containing costs,
                                                                         USPTO
              USPTO Director Jon Dudas and Secretary of Commerce Carlos
                                                                                        and delivering the required services on time.
              Gutierrez (back row) look on as Dean Harts of 3M, April Sauders-
              Fuller of Fish & Richardson, and Felicia Metz of the University of        Clearly, recruitment, attrition, and information tech­
              Maryland (front row) file patent documents electronically at the          nology remain serious challenges for the agency. We
              March 16, 2006, launch of EFS-Web USPTO’s new electronic
                                                                                        will continue to monitor USPTO’s progress in those
              filing system.
                                                                                        areas as well as its training programs and human
                                                                                        resources or personnel operations, where we earlier
              While USPTO plays a critical role in promoting the                        found some questionable practices and the need for
              nation’s technological progress and protecting intel­                     improved management controls. We also plan to con­
              lectual property rights, its task is often viewed as                      duct follow-up work on the agency’s new overseas
              daunting given the increasing number and complexi­                        attaché program and some of its other initiatives,
              ty of patent applications. The agency’s 21st Century                      such as the new patent peer review process.
              Strategic Plan, issued in 2002 and later revised, out­
              lined numerous initiatives to help reduce its large
              backlog of applications, ensure the quality of granted
              patents, and improve the productivity of its examin­                      Challenge 6
              er corps. An earlier OIG report on USPTO’s patent
              examiner production goals, performance appraisal                          Effectively Manage the
              plans, and awards highlighted actions that the agency
              could take to stimulate and reward examiner produc­
                                                                                        Development and Acquisition of
              tion. A recent GAO report on USPTO’s recruitment                          Environmental Satellites
              and retention efforts also called on agency managers
              to reassess examiner production goals, but noted that                     NOAA is in the midst of a major overhaul of its envi­
              examiners often cited those goals as a primary reason                     ronmental monitoring capabilities, spending several
              for leaving the agency. GAO also reported that attri­                     billion dollars on contracts for the purchase, con­
              tion is continuing to offset USPTO’s hiring progress                      struction, and modernization of satellite systems that
              even with the use of many incentives and flexibilities                    collect data to produce short- and long-range weath­
              to retain the workforce for longer periods.                               er forecasts and a variety of other critical information.
                                                                                        Satellite programs are highly complex and risky, and
              One of those workplace incentives has been                                they historically have been plagued by substantial
              USPTO’s expansion of its telework program, allow­                         cost increases and schedule delays. They are also
              ing examiners to use laptops to work at offsite                           extremely important to public safety and defense
              locations. Lost laptops and data security problems at                     operations, and therefore have been a continuing
              other Commerce bureaus underscore the need for                            focus of our work.
              strong policies, procedures, and controls at USPTO
              to avoid similar problems and the potential compro-



                                                                                   10
DOC OIG SAR 11-07.qxd     11/27/07       1:36 PM        Page 11




              September 2007—Semiannual Report to Congress                                                                         Major Challenges for the Department




              Acquiring Geostationary                                                                for GOES-R that omits key features of accepted satel­
                                                                                                     lite acquisition management practices. And we
              Weather Satellites
                                                                                                     concluded these omissions had negative impacts on
                                                                                                     the program. We made recommendations to
              In the next decade, GOES-R will replace the existing
                                                                                                     Commerce and NOAA to help bring GOES-R over­
              GOES satellites. The new series will offer an uninter­
                                                                                                     sight and management practices in line with those
              rupted flow of high-quality data to support weather
                                                                                                     used by NASA and the Department of Defense in
              forecasting, severe storm detection, and climate
                                                                                                     satellite acquisitions. NOAA agreed with our recom­
              research vital to public safety. GOES-R is a multicon­
                                                                                                     mendations specific to its role in the acquisition,
              tract, multiyear program wholly funded by
                                                                                                     stating it is working with NASA on changes that will
              Commerce, though the new satellites will be devel­
                                                                                                     implement them. We recently received the
              oped and acquired with help from NASA Goddard
                                                                                                     Department’s response, which will be considered in
              Space Flight Center. Planning for the new series has
                                                                                                     developing our final conclusions and recommenda­
              been under way for the past 7 years. The
                                                                                                     tions regarding management of the GOES-R
              Department’s investment for GOES-R for fiscal years
                                                                                                     program.
              2008 to 2012 is projected to be about $2.4 billion.


                                                                                                     NPOESS Acquisition Restructured
                                                                                                     We described the troubled National Polar-orbiting
                                                                                                     Operational Environmental Satellite System
                                                                                                     (NPOESS) in our September 2006 Semiannual
                                                                                                     Report (page 29). This joint project of NOAA,
                                                                                                     NASA, and the Department of Defense will be a crit­
                                                                                                     ical element in the nation’s ability to provide
                                                                                                     continuous weather and environmental data for civil­
                                                                                                     ian and military needs through the coming 2 decades.
                                                                                                     In November 2005, Defense reported that NPOESS
                                              http://goes.gsfc.nasa.gov/text/goesimbroch.html
                                                                                                     costs had grown by 25 percent over original esti­
              This solar imager, which is carried on the GOES satellites currently
              in orbit, observes the sun’s X-ray emissions and allows early
                                                                                                     mates, largely because of problems developing a key
              detection of flares and other solar phenomena that may affect the                      sensor, the Visible/Infrared Imager Radiometer Suite
              Earth and its atmosphere. GOES-R will feature an enhanced solar                        (VIIRS). The 25 percent overrun triggered congres­
              imaging suite that permits even more varied and precise readings.                      sional recertification under the Nunn-McCurdy
                                                                                                     provision of the FY 1982 National Defense
              In acquiring GOES-R jointly with NASA, NOAA                                            Authorization Act. In June 2006, the House Science
              will have the lead management role for the first time,                                                             Committee accepted a
              giving the Department direct oversight authority for                                                               triagency proposal to con­
              both the ground and space segments. In June 2007,                                                                  tinue the program, but
              NOAA and NASA signed a memorandum of agree­                                                                        with four satellites instead
              ment defining their separate authorities and                                                                       of six, and with fewer sen­
              responsibilities for managing, developing, acquiring,                                                              sors. Total acquisition
              and integrating GOES-R. Because these are new roles                                                                costs were revised by
              for both the Department and NOAA, we evaluated                                                                     $5 billion.
              whether they have established effective mechanisms                                                http://eic.ipo.noaa.gov/
                                                                                                           IPOarchive/ED/graphics_kit/
                                                                                                                               This past July, the
              for handling their expanded responsibilities.                                                    NPOESS_teamLogo.jpg
                                                                                                                               NPOESS Program Office
              Our draft report, issued to the Department and                                         executed a $4.2 billion modification to the develop­
              NOAA in September, identifies a life-cycle process                                     ment and production contract after a year-long effort



                                                                                                11
DOC OIG SAR 11-07.qxd   11/27/07     1:36 PM    Page 12




              Major Challenges for the Department                                        September 2007—Semiannual Report to Congress



              to restructure the satellite program following recerti­        Over the past several years, OIG has conducted several
              fication. The revamped program calls for more                  reviews of the Department’s efforts to increase U.S. mar­
              rigorous management controls and oversight, and a              ket opportunities, provide assistance to U.S. exporters,
              more objective incentive payment plan for the con­             and overcome trade barriers in difficult foreign markets.
              tractor. It covers development, delivery, and launch of        A number of these reviews have also included evalua­
              two NPOESS satellites through 2016, and includes               tions of ITA’s process for reporting export success claims
              delivery of sensors to support the NPOESS                      resulting from its assistance to U.S. businesses. Our
              Preparatory Project, which is to be launched in 2009           findings have prompted ITA to strengthen its controls
              for the purpose of demonstrating and validating new            related to export success reporting.
              instruments, algorithms, and other capabilities. The
              last phase of development is now proceeding.
              Program executives have identified VIIRS and the               Interagency Trade Coordination
              Cross-track Infrared Sounder (CrIS) as the highest
              risk components.                                               In March 2007, OIG released a report reviewing var­
                                                                             ious aspects of Commerce’s trade promotion efforts
              We will continue to monitor cost, schedule, and                and the coordination of those efforts among various
              technical progress on both GOES-R and NPOESS                   offices within the Department and with other federal
              and report our findings in future semiannual reports.          and state trade agencies and other trade partners. We
                                                                             found effective collaboration on trade promotion in
                                                                             many instances, but we also identified areas where
                                                                             Commerce and other members of the federal inter-
              Challenge 7
              Promote U.S. Exports and
              Fair Competition in
              International Trade
              The Department of Commerce accomplishes its
              goals of promoting trade, opening overseas markets
              to American firms, and protecting U.S. industry
              from unfair trade practices primarily through the
              work of the International Trade Administration
              (ITA). ITA also works with USPTO and NIST to
              advise U.S. companies on intellectual property rights
              and standards issues.

              During this semiannual period, OIG decided to
              revise the title of the challenge facing the
              Department. Although Commerce has a primary role
              in enforcing U.S. antidumping and countervailing
              duty laws and countering foreign unfair trade prac­
              tices, greater emphasis and resources are focused on
              promoting U.S. exports and ensuring access to world                                                    Commerce Photographic Services
              markets for U.S. companies. Hence, we have modi­               Commerce Secretary Carlos M. Gutierrez announced the release of
              fied this challenge to better reflect the Department’s         the 2007 National Export Strategy and highlighted the need for
              and ITA’s responsibilities for promoting exports and           congressional action on the Peru, Colombia, Panama, and Korea
              reducing trade barriers.                                       Free Trade agreements at the 25th annual Washington Trade Gala
                                                                             in July.




                                                                        12
DOC OIG SAR 11-07.qxd   11/27/07    1:36 PM    Page 13




              September 2007—Semiannual Report to Congress                                         Major Challenges for the Department



              agency Trade Promotion Coordinating Committee                   activities. (See September 2006 Semiannual Report,
              could enhance their cooperation on specific activities,         pages 33-37.)
              such as trade finance assistance, Internet resources for
              exporters, and trade assistance at overseas posts that          CS and ITA each have 3 open recommendations out
              do not have a commercial officer. Many of the recom­            of a total of 20 in our 2006 review of CS operations
              mendations in that report require long-term efforts             in Argentina and Uruguay. The open recommenda­
              and/or interagency cooperation for completion, so               tions involve financial management improvements
              none of them has yet been fully implemented. (See               and effective coordination with the Department of
              March 2007 Semiannual Report, pages 37-40.)                     State’s partnership posts. (See September 2006
                                                                              Semiannual Report, pages 25-27.)
              During the course of working on the trade coordina­
              tion report, OIGs at several agencies raised issues             Finally, only 3 recommendations remain open of the
              about the process Commerce uses to prepare the                  35 originally made in our review of CS China,
              National Export Strategy and the involvement of other           although we recently received information indicating
              federal agencies in that effort. We reviewed the 2002           additional action may be required on one of the
              to 2006 National Export Strategy reports and found              closed recommendations. The open recommenda­
              that the annual report often outlines useful strategies         tions deal with the American Trading Center
              and initiatives—such as the promotion of public-pri­            initiative and an evaluation of language proficiency
              vate partnerships. The strategy does not, however,              requirements for CS officers assigned to China. (See
              establish consistent goals for promoting exports, align         March 2006 Semiannual Report, pages 23-26.)
              agency-specific strategic objectives with government-
              wide export promotion strategic goals, or measure               During the next semiannual period, we will continue
              progress toward meeting those goals. Nor is it a coor­          to monitor Commerce’s response to recommenda­
              dinated government-wide strategy, as envisioned by              tions made in our recent reports on CS operations at
              the Export Enhancement Act of 1992. The 2007                    Asian and South American posts and on trade coor­
              National Export Strategy report, released in June, con­         dination. Future OIG reviews may focus on the
              tained several improvements that are responsive to              Department’s efforts to oversee U.S. foreign trade
              our recommendations, but further action is warrant­             zones or to increase exports to countries that have
              ed. (See page 33.)                                              recently signed free trade agreements with the United
                                                                              States. We will also continue our periodic inspections
                                                                              of CS’ overseas posts, as mandated by the 1988
                                                                              Omnibus Trade and Competitiveness Act.
              U.S. Trade Promotion in Latin America
              and China
              During this semiannual period, we followed up on                Challenge 8
              recommendations made in our reports on
              Commercial Service (CS) operations in Brazil,                   Effectively Manage NOAA’s
              Argentina, Uruguay, and China. ITA and CS have
              made progress on many of the recommendations in
                                                                              Stewardship of Ocean and Living
              our CS Brazil review, and we have closed 18 of our              Marine Resources
              43 recommendations. Those that remain open
              include recommendations for improving coordina­                 NOAA spends billions of dollars each year support­
              tion with other embassy sections, clarifying export             ing a vast array of programs designed to protect and
              success reporting, and developing a strong marketing            enhance the resources in 3.5 million square miles of
              plan and financial management practices. In addi­               coastal and deep ocean waters and the Great Lakes.
              tion, we have closed the 2 recommendations made to              These programs require long-term commitments and
              USPTO but have kept open a recommendation to                    years of funding to show their full effect. And they
              NIST regarding coordination with CS on regional                 must operate in balance with the economic interests


                                                                         13
DOC OIG SAR 11-07.qxd     11/27/07       1:36 PM        Page 14




              Major Challenges for the Department                                                            September 2007—Semiannual Report to Congress



              of the nation: one of every six jobs is marine related                              waters offer safe breeding grounds for threatened
              and more than one-third of the gross national prod­                                 species and harbor underwater archeological sites.
              uct is generated by economic activity tied to                                       The program’s primary mission is resource protec­
              coastal areas.                                                                      tion, but it must also facilitate compatible public and
                                                                                                  commercial uses along with conservation and
              NOAA offers several financial assistance programs to                                research activities. The sanctuary program coordi­
              support the commercial fishing industry’s viability                                 nates its efforts with the U.S. Coast Guard,
              while working to reduce overfishing and rebuild                                     Environmental Protection Agency, Department of
              compromised fisheries. The Fisheries Finance Loan                                   the Interior, and a broad range of other federal, state,
              Program is one such initiative. Operated by the                                     local, and private partners. We are evaluating whether
              National Marine Fisheries Service, the program pro­                                 the program is meeting its core objectives, with a pri­
              vides direct loans to refinance or refurbish fishing                                mary focus on marine conservation and research.
              vessels, shoreside processing facilities, and aquacul­
              ture facilities. Program regulations and congressional                              The National Data Buoy Center manages four marine
              appropriation language restrict the program from                                    observation systems: weather buoys, coastal marine
              making loans for vessel construction or refurbishing                                observing stations, tsunami detection buoys, and cli­
              loans that increase a vessel’s fishing capacity. Since                              mate monitoring buoys. Weather forecasting depends
              1998, NMFS has made approximately 200 loans, for                                    on the reliability and accuracy of these systems. In
              a total of nearly $300 million. We are currently eval­                              addition, the Tropical Atmosphere and Ocean buoys
              uating the agency’s management of the loan program                                  and weather buoys with oceanographic sensors pro­
              to determine if it affects NOAA’s ability to help end                               vide climate data and information for researchers. We
              overfishing and rebuild fisheries. Also under way are                               are assessing the quality and availability of data gen­
              reviews of NOAA’s National Marine Sanctuary                                         erated by the observational buoys and coastal stations
              Program and the National Data Buoy Center’s ocean                                   and the center’s management of them. We anticipate
              observation system.                                                                 that the sanctuary and data buoy reviews will be com­
                                                                                                  pleted in December or early 2008.

                                                                                                  In planning for future OIG work on this challenge,
                                                                                                  we are considering reviews of NOAA’s offshore aqua­
                                                                                                  culture program, its coral reef program and coastal
                                                                                                  zone management, among other issues vital to the
                                                                                                  stewardship of ocean and living marine resources.



                                                                                                  Challenge 9
                                         Greg McFall/Grey’s Reef National Marine Sanctuary
                                                                                                  Aggressively Monitor Emergency
              Coral reefs are some of the most biologically rich and economically
              valuable ecosystems on Earth. They are found in five National                       Preparedness, Safety, and
              Marine Sanctuaries, such as Grey’s Reef (pictured above), off the
              coast of Georgia.                                                                   Security Responsibilities
              The sanctuary program manages and protects                                          The Department of Commerce has more than
              13 sanctuaries and a marine national monument in                                    35,000 employees and hundreds of facilities it
              northwestern Hawaii, which is the largest protected                                 must keep safe. As a cabinet-level Department, it also
              marine area in the world. The entire sanctuary system                               has a number of programs critical to national pre­
              encompasses 158,000 square miles of U.S. ocean and                                  paredness and recovery efforts, and it must support
              Great Lakes marine habitat that have conservation,                                  U.S. efforts to prepare for, respond to, and recover
              historical, or scientific importance—their protected                                from major disasters.


                                                                                             14
DOC OIG SAR 11-07.qxd     11/27/07      1:45 PM      Page 15




              September 2007—Semiannual Report to Congress                                                        Major Challenges for the Department



                                                                                            threats, and the broad range of public safety respon­
                                                                                            sibilities inherent in its mission.

                                                                                            Our in-progress review of NOAA’s ocean monitoring
                                                                                            system, mentioned previously, is an example of our
                                                                                            broader focus. Data buoys—the primary components
                                                                                            of the system—record a variety of critical marine
                                                                                            readings, such as wind and wave measurements and
                                                                                            air and sea temperatures, giving forecasters an addi­
                                                                                            tional tool for predicting and tracking hurricanes and
                                                                                            other potential weather emergencies. For the coming
                                                                                            year, we are also considering reviews of the
                                                                                            Department’s new identity/badging system, person­
                                                                                            nel security, and information document security.



                                                                                            Challenge 10
                                                                                            Enhance Export Controls for
                                                                                            Dual-Use Commodities
                                                           Homeland Security Council
              The National Continuity Implementation Plan provides                          Commerce’s Bureau of Industry and Security (BIS) is
              comprehensive guidance for maintaining essential operations                   responsible for the federal government’s export
              during emergencies.                                                           licensing and enforcement system for goods and tech­
                                                                                            nologies with both civilian and military uses. Because
              We continue to monitor Commerce’s progress in                                 of the importance of export controls to national secu­
              resolving weaknesses in emergency preparedness and                            rity, OIG has consistently devoted a great deal of time
              security. As of August 2007, the Department had                               and resources to challenges facing BIS.
              addressed virtually all outstanding recommendations
              from our 2002 and 2005 reviews of its preparedness                            For the past 8 years, OIG has been working to fulfill
              programs. But a dynamic security environment con­                             the requirements of the National Defense
              tinues to challenge the nation: Commerce, like all                            Authorization Act (NDAA) for FY 2000, as amend­
              federal agencies, must be vigilant in maintaining effec­                      ed, which directed the inspectors general of
              tive oversight of emergency plans and programs,                               Commerce, Defense, Energy, and State, in consulta­
              identifying and mitigating new security vulnerabili­                          tion with the directors of Central Intelligence and the
              ties, and protecting critical assets. It must be able to                      Federal Bureau of Investigation, to report to
              continue essential operations under all circumstances.                        Congress each year through 2007 on the adequacy of
                                                                                            current export controls and whether they are effec­
              In May 2007, President George W. Bush issued                                  tively preventing entities of concern from acquiring
              National Security Presidential Directive 51 (also                             sensitive U.S. technologies. The Department of
              known as Homeland Security Presidential Directive                             Homeland Security’s OIG has also participated in
              20) that updates long-standing continuity directives                          these reviews since that agency was formed. The group
              to ensure that governing entities are able to recover                         of OIGs is currently completing the eighth and final
              from operational disruptions, thus maintaining con­                           NDAA interagency review of export controls.
              tinuity of operations. We will keep a close watch on
              the Department’s efforts to comply with this direc­                           During this semiannual period, we continued to
              tive, as well as on its ongoing oversight of                                  monitor BIS’ progress in implementing NDAA rec­
              preparedness procedures, its response to emerging                             ommendations detailed in our March 2004


                                                                                       15
DOC OIG SAR 11-07.qxd   11/27/07     1:36 PM    Page 16




              Major Challenges for the Department                                       September 2007—Semiannual Report to Congress



                                             Semiannual Report (pages         We also followed up on our reviews of U.S. export
                                             14-17). For example,             controls for India and China. (See March 2007
                                             we have closely followed         Semiannual Report, page 19, and March 2006
                                             the activities and delib­        Semiannual Report, page 13.) In June 2007, BIS
                                             erations of the Deemed           implemented a final rule that clarifies U.S. policy on
                                             Export Advisory Com­             the export to China of items controlled for national
                                             mittee, which is review­         security reasons and implements new controls on
                                             ing BIS’ deemed export           exports of certain otherwise uncontrolled items when
                                             control policy and rele­         the exporter knows they are destined for a military
                                             vant recommendations             end use in China.
                                             made by this office.
                                       BIS
                                             Deemed export controls           Finally, although questions remain about the overall
                                             are designed to prevent          effectiveness of the Committee on Foreign
              the transfer within the United States of controlled             Investment in the United States (CFIUS) process, in
              U.S. technologies and technical information to for­             this year’s NDAA follow-up report we noted that
              eign nationals from countries or entities of concern.           both BIS and ITA are working toward implementing
              We look forward to the committee’s report by the end            our recommendations related to CFIUS activities
              of this calendar year and hope its findings and recom­          within Commerce. (See March 2007 Semiannual
              mendations will enable BIS to increase deemed                   Report, pages 23-25.) We believe these improvements
              export compliance rates, assist enforcement efforts,            will allow greater coordination and transparency in
              and ensure that the regulations have the intended               Commerce’s decision-making process. However, we
              effect of protecting national security interests without        continue to question whether CFIUS’ voluntary for­
              unnecessarily burdening exporters and the scientific            eign investment reporting process allows the
              community (see March 2004 Semiannual Report,                    Committee to receive timely information about all
              pages 14-17).                                                   acquisitions and mergers that pose potential security
                                                                              concerns, especially those involving small or
                                                                              medium-sized U.S. companies that manufacture or
                                                                              conduct research on sensitive U.S. technologies.




                                                                         16
DOC OIG SAR 11-07.qxd   11/27/07    1:36 PM    Page 17




                         ECONOMIC DEVELOPMENT

                            ADMINISTRATION


              T     he Economic Development Administration was established by the Public Works and Economic
                    Development Act (PWEDA) of 1965 to generate new jobs, help retain existing jobs, and stimulate pri­
              vate investment in economically distressed regions of the United States. EDA continues to fulfill this mission
              under the authority of PWEDA, as amended by the Economic Development Reauthorization Act of 2004.
              Based on local and regional comprehensive economic development strategies, EDA works in partnership with
              state and local governments, regional economic development districts, public and private nonprofit organiza­
              tions, and Indian tribes to help distressed communities address problems associated with long-term economic
              deterioration and sudden and severe economic dislocations, including recovery from the economic impact of
              natural disasters, the closure of military installations and other federal facilities, changes in trade patterns, and
              the depletion of natural resources. EDA provides eligible recipients with technical assistance, as well as grants
              for public works, planning, training and research, and economic adjustment assistance.




              Nevada County Fails to                                        Our audit, which covered the full grant
                                                                            term—September 30, 1999, through August 15,
              Complete $6.7 Million Public                                  2004—sought to determine whether the county had
              Works Project                                                 achieved award objectives, claimed allowable costs,
                                                                            maintained adequate administrative and program
              We conducted an audit of a public works grant                 controls, and complied with grant terms and condi­
              awarded to a county to offset the economic impacts            tions. The county claimed total project costs of
              of defense downsizing at the Nevada Test Site. Total          $6,746,652, which exceeded the approved
              estimated costs for the project—which targeted high-          award budget.
              tech development in the state's south central
              region—were $6.7 million, consisting of a $3 million          Our review disclosed that the county failed to execute
              federal share, with the county's match making up              numerous responsibilities it had committed to when
              the balance.                                                  it applied for the award. It could not finance the local
                                                                            share, implement the project components as intend­
              The grant was to fund three activities: planning and          ed, or properly oversee the project to ensure it was
              project management, creation of a technology center           administered according to federal cost principles,
              to provide distance education to rural communities            uniform administrative requirements, and award
              along the targeted development corridor, and con­             terms and conditions. In addition, the county did not
              struction of a science and technology park for private        provide and maintain the necessary engineering
              high-tech firms.                                              supervision to ensure that the work on the science




                                                                       17
DOC OIG SAR 11-07.qxd     11/27/07       1:36 PM      Page 18




              Economic Development Administration                                                      September 2007—Semiannual Report to Congress



              and technology park conformed to approved plans                             EDA Should Consider
              and specifications and resulted in a functional devel­
              opment. More than a year after construction was                             Terminating Grant to California
              completed and the grant had expired, the park                               City and Water District
              remained without water and other infrastructure and
              had no prospects for use.                                                   In February 2005, EDA awarded a California city
                                                                                          and water district a $7.9 million grant consisting of a
                                                                                          48 percent federal share of $3,800,000 and a 52 per­
                                                                                          cent local match of $4,137,000 to increase water and
                                                                                          sewer capacity and service to both the city and the
                                                                                          adjoining service area. In August 2005, EDA sus­
                                                                                          pended the award because the recipients had not
                                                                                          executed a joint agreement to administer the grant.
                                                                                          The water district subsequently asked to withdraw
                                                                                          from the grant but agreed to continue to provide
                                                                              OIG         $2 million toward the local share. EDA has yet to
              The grantee completed the proposed technology center knowing that           decide on the water district's request to withdraw.
              the county did not have the infrastructure needed to link the center        The award remains suspended, and no federal funds
              with outlying communities and establish a long-distance learning            have been disbursed by EDA.
              network. The building remains unusable for its intended purpose.

                                                                                          We conducted an audit to assess the city’s ability to
              We questioned the entire $6,746,652 in claimed                              effectively manage the grant project. As the grant
              costs and recommended that the EDA regional direc­                          recipient, the city is responsible for responding to our
              tor (1) conduct a technical assessment of the county's                      requests for records and making staff available for
              performance and determine the value of work not                             interviews and inquiries. Despite this fact, we
              completed or not operational; (2) disallow all claimed                      encountered numerous difficulties obtaining access
              costs pending the results of the assessment and recov­                      to the documentation and key personnel we needed.
              er the federal share of $3 million; (3) require the                         Among other things, the city refused to
              county to report on its efforts to provide water to the
              park and establish a time line and budget for com­                              ■	   schedule an entrance conference until shown
              pleting the park as originally conceived or otherwise                                the audit access clause contained in the
              integrating it into alternative economic development                                 city’s award;
              plans; and (4) accurately identify the amount of
              equipment acquired under the award and the govern­                              ■	   provide requested documentation relating to
              ment's interest in that equipment. We also                                           its procurement of consulting and
              recommended that EDA declare the county a high-                                      architectural engineering services, claiming
              risk recipient should it ever be considered for future                               that California record retention laws do not
              federal awards.                                                                      require such documentation to be maintained
                                                                                                   in perpetuity, despite the fact that grant terms
              County officials concurred with some of our findings                                 clearly required them to have retained the
              and disagreed with others, but offered no compelling                                 relevant documents at the time of our
              evidence to cause us to modify our conclusions and                                   request; and
              recommendations. (Seattle Regional Office of Audits:
              STL-17802)                                                                      ■    schedule interviews with two key personnel.

                                                                                          We were ultimately able to arrange a meeting with
                                                                                          one after obtaining contact information from
                                                                                          outside sources. We were never able to schedule the
                                                                                          second interview.


                                                                                     18
DOC OIG SAR 11-07.qxd   11/27/07   1:36 PM    Page 19




              September 2007—Semiannual Report to Congress                                       Economic Development Administration



              After 2 weeks of thwarted attempts to obtain the               administers the grant has rebuilt the fund over the
              information and documentation necessary to con­                past 17 years.
              duct the audit, we concluded that we were at an
              impasse. The city's denial of access constituted a             At the request of the EDA Chicago Regional Office,
              material breach of the EDA grant. We recommended               we conducted an audit of this award. We found that
              EDA consider terminating the award for cause,                  the grant administrator inappropriately combined
              deobligating the federal share, and putting $3.8 mil­          the accounting records for the RLF with its account­
              lion to better use. (Seattle Regional Office of Audits:        ing for two subsequent state grants into a single
              STL-18499)                                                     account. As a result, the EDA RLF funds were indis­
                                                                             tinguishable from the state grant funds and therefore
                                                                             unauditable. During our fieldwork in November
                                                                             2006, we notified the grant administrator that the
              More than $2 Million in RLF                                    RLF fund and corresponding matching share needed
                                                                             to be separated from its other grant funds.
              Grant Funds Questioned
                                                                             After our fieldwork was complete, the grant adminis­
              In September 1985, EDA awarded an $800,000 sud­                trator separated the RLF fund and its corresponding
              den and severe economic dislocation adjustment                 match from other grant funds and claimed the fund
              implementation grant to a Wisconsin county. The                totaled $2,051,404 as of September 30, 2006.
              grant required a $623,870 match, bringing the initial          However, the administrator did not provide docu­
              project value to $1,423,870. EDA later deobligated             mentation supporting its claim. We questioned the
                                       $2,812 of grant funds,                entire amount claimed because the allowability and
                                           leaving total capitaliza­         accuracy of each line item was not documented.
                                            tion of $1,421,058.
                                                                             We recommended the EDA Chicago regional direc­
                                            The grant was origi­             tor require the grant administrator to provide
                                            nally to be combined             supporting documentation for its claimed RLF bal­
                                            with private financing           ance. If the administrator cannot adequately support
                                           to make a loan to a               the claimed RLF balance, EDA may terminate the
                                          local hardwood die                 grant and recover $797,188 of federal funds awarded
                                      company. Repayments of                 (the $800,000 EDA award less the $2,812 deobliga­
              the loan were to be used to create a revolving loan            tion). The grant administrator has filed an appeal,
              fund (RLF). The initial loan defaulted in 1990, but            which is currently under consideration. (Denver
              the local economic development corporation that                Regional Office of Audits: DEN-18388)




                                                                        19
DOC OIG SAR 11-07.qxd   11/27/07   1:36 PM   Page 20




                                                                                             Photo Courtesy U.S. Census Bureau
                                                  A Census Bureau enumerator shows an official badge before beginning a survey.
DOC OIG SAR 11-07.qxd   11/27/07   1:36 PM    Page 21




                        ECONOMICS AND STATISTICS

                            ADMINISTRATION


              T   he Economics and Statistics Administration analyzes economic developments, formulates policy
                  options, and produces a major share of U.S. government economic and demographic statistics. The chief
              economist monitors and analyzes economic developments and directs studies that have a bearing on the
              formulation of economic policy. ESA has two principal agencies:

                  U.S. Census Bureau is the country’s preeminent statistical collection and dissemination agency. It
                  publishes a wide variety of statistical data about the nations’ people and economy, conducting
                  approximately 200 annual surveys, in addition to the decennial census of the U.S. population and the
                  quinquennial census of industry.

                  Bureau of Economic Analysis prepares, develops, and interprets the national income and product accounts
                  (summarized by the gross domestic product), as well as aggregate measures of international, regional, and
                  state economic activity.




              Census Bureau Needs to                                         and lost laptops, the Department issued a press
                                                                             release stating that 1,138 laptops had been lost
              Strengthen Personal Property                                   Department-wide. Of that number, 672 belonged to
              Controls and Laptop Security                                   Census. Commerce subsequently received a second
                                                                             congressional request relating to information on
              In May 2006, the Department of Veterans Affairs                missing laptop computers, thumb drives, handheld
              announced that computer equipment containing the               devices, and computer data disks dating back to
              personal information of approximately 26.5 million             January 2001. In response to the large number of lap-
              veterans and active duty members of the military had           tops lost by Census, the Secretary of Commerce
              been stolen from the home of an employee. The ram­             asked the Office of Inspector General to determine
              ifications of this theft, including the high cost of           the extent of problems in protecting sensitive person­
              protecting the identities of the individuals whose data        al information at the Census Bureau and to assess the
              had been stolen, emphasized the importance of                  bureau’s property management policies and practices.
              ensuring that controls are in place to prevent future
              data breaches at federal agencies.                             Our Office of Audits reviewed the Census Bureau’s
                                                                             policies and procedures and assessed internal controls
              In September 2006, following both a congressional              over accountable personal property. Its emphasis was
              and a Freedom of Information Act request regarding             on the missing/lost/stolen laptops reported to
              the compromise of sensitive personal information               Congress for the period 2001 to 2006. In a separate



                                                                        21
DOC OIG SAR 11-07.qxd       11/27/07      1:36 PM   Page 22




              Economics and Statistics Administration                                        September 2007—Semiannual Report to Congress



              report, our Office of Systems Evaluation reviewed the           ed a full system shutdown. The laptop’s hard drive
              IT security controls protecting sensitive information           was not encrypted in standby or hibernation modes,4
              on laptop computers during the time frame of the                if a laptop was manually turned off without executing
              reported losses.                                                the system shutdown command, or if it lost power.
                                                                              Even after a full system shutdown, Social Security
              We identified the weaknesses that existed during the            numbers, names, addresses, phone numbers, and
              time the laptops went missing and the corrective                medical and financial information remained unen­
              actions that had been taken or were planned to pre­             crypted in some specific types of files on Census field
              vent future losses, and determined which weaknesses             representatives’ laptops. Given how the laptops are
              still remained. We examined internal controls such as           used in the field, it is likely that some were in an
              physical control over vulnerable assets, segregation of         unencrypted state when lost or stolen, leaving Title
              duties, and execution, recording, and documentation             13 information readily accessible. However, Census
              of transactions and events.                                     reported that as of June 2007 it had completed its
                                                                              implementation of full disk encryption on all field
              We also examined six laptops used by Census field               representative laptops currently in use, which
              representatives to collect and store survey informa­            resolved the encryption problems we had identified.
              tion. Census’s technology management office
              obtained the laptops for us from regional Census                Unnecessary User Privileges Introduced
              offices. The encryption software on these laptops was           Significant Risks
              the product used prior to the recent installation of a
              full disk encryption product.                                   Our laptop evaluation found that field representa­
                                                                              tives had more privileges than necessary to perform
                                                                              their duties, including privileges to create and man­
              Lax IT Security Leaves Sensitive                                age local user accounts and groups, install
                                                                              applications, and stop and start system services. Such
              Census Information at Risk of                                   privileges introduce significant risk of information
              Compromise                                                      compromise because they can be used to reduce the
                                                                              security controls on the laptops and increase exposure
              To foster public participation in the bureau’s data col­        to threats.
              lection activities, Title 133 requires Census to
              maintain the confidentiality of information it                  Other Weaknesses Increased Risk
              receives. Yet each of the six laptops we examined
              using tools readily available on the Internet had seri­         At the time of our fieldwork, violations included
              ous IT security weaknesses that left Title 13                   sharing of a single Windows operating system
              information at risk of compromise. This data includ­            account username and password—both published in
              ed personally identifiable information such as Social           Census’s laptop user guide—on approximately
              Security numbers, addresses and phone numbers,                  11,000 field laptops, laptops not configured to create
              financial data, and medical information. We also                security event audit logs, and laptops lacking current
              found a lack of enforcement of Department and                   antivirus software. These violations greatly increase
              bureau IT security policy.                                      the possibility that an attacker—either external or
                                                                              internal—could gain unauthorized access; make it
              Information on Census field representatives’ laptops            impossible to reconstruct security incidents in the
              was only encrypted when the computer user execut­               event of a breach (including determining if Title 13


              3
                  13 U.S.C. § 1 et seq.                                       4	
                                                                                   Hibernation mode allows computer users to save the contents
                                                                                   of their computer’s memory to disk before shutting down.
                                                                                   Standby mode conserves laptop battery power by turning off
                                                                                   unnecessary devices until the laptop is needed again. Users
                                                                                   must reauthenticate to restore the laptop from these modes.



                                                                         22
DOC OIG SAR 11-07.qxd   11/27/07     1:36 PM    Page 23




              September 2007—Semiannual Report to Congress                                          Economics and Statistics Administration



              data had been accessed); and increase the risk of a lap­           ers be provided the necessary senior management and
              top being infected by computer viruses, which can                  technical support and IT security resources to fulfill
              compromise Title 13 information, destroy vital files,              their IT security responsibilities, including support
              and infect other devices connected to the laptop.                  for assessing and making appropriate trade-offs
                                                                                 between operational needs and IT security consider­
                                                                                 ations. Further, we recommended that all
              Lax IT Security Support Allowed Problems
                                                                                 information system security officer positions be filled
              to Persist                                                         by personnel who have appropriate IT security skills,
                                                                                 have IT security as their primary duty, and receive
              Before the laptop losses became public, no in-depth                close oversight from the senior IT security officer.
              analysis of the security controls had been performed,              We also made recommendations for correcting
              even when the bureau’s system was certified and                    the specific IT security violations we identified in
              accredited in 2004. As we reported in 2004, the                    our evaluation.
              bureau’s C&A process failed to provide accurate and
              complete information on remaining vulnerabilities to               In its response to our report, Census identified the
              authorizing officials, but system operations were                  internal initiatives being implemented to improve the
              approved nonetheless. Despite the inadequacies in the              bureau’s IT security program. The bureau agreed with
              assessment of controls on the laptops, significant secu­           our recommendation to examine recovered laptops
              rity vulnerabilities were known by the bureau’s senior             for unencrypted personally identifiable information
              IT security officer but remained uncorrected. In addi­             and notify the Identity Theft Task Force if found.
              tion, although an information system security officer              The bureau did not say whether it concurred with
              is assigned to each Census system and is charged with              our other recommendations, although it did provide
              implementing appropriate security controls, the secu­              some general discussion of actions that were partially
              rity officer for the laptops—like nearly all other                 responsive to them. The difficulty of meeting ever-
              system security officers at Census—is not an IT secu­              increasing IT security requirements without
              rity specialist, and system security officer is a part-time        additional funding was a major theme of the
              duty. Since the time the laptop losses were publicized,            response. (Office of Systems Evaluation: IG-18387-2)
              senior Census management has taken significant steps
              to improve protection of Title 13 information
              throughout the bureau, and the laptop system owner
              has taken quick action to correct many of the weak­
                                                                                 Census Has Improved Accountability
              nesses we identified in our review. Also, our FY 2006              for Laptops and Other Personal
              and FY 2007 independent FISMA evaluations found                    Property, but Additional Improvements
              Census has made significant improvements to its                    Are Needed
              C&A process. The improved process is being used for
              C&A of the field representative laptops.
                                                                                 From January 2001 until September 2006, personal
                                                                                 property management at Census suffered from a
              IT Security Function Should Be Strengthened                        number of weaknesses, including insufficient atten­
                                                                                 tion to property management, inactive property
              We recommended the Census Bureau examine recov­                    boards of review, and inadequate procedures for
              ered laptops to identify unencrypted personally                    recovery of laptops. During our review, we were told
              identifiable information and notify Commerce’s                     by various Census officials that prior to 2006 the
              Identity Theft Task Force of each instance where it is             recovery of lost/stolen laptops and other accountable
              found. We also recommended the bureau evaluate                     property had not been a priority.
              whether its CIO office has adequate resources and
              technical expertise to ensure compliance with IT                   By the time we began our review, Census had taken
              security requirements and to assist system owners and              or planned a number of actions to address the exist­
              authorizing officials in carrying out their IT security            ing weaknesses in personal property management. In
              responsibilities. We recommended that system own-                  an October 3, 2006, memorandum, the Deputy


                                                                            23
DOC OIG SAR 11-07.qxd    11/27/07    1:36 PM     Page 24




              Economics and Statistics Administration                                     September 2007—Semiannual Report to Congress



              Secretary assigned the offices of the Chief Information        excess equipment is contained in a number of differ­
              Officer and the Chief Financial Officer and Assistant          ent memorandums issued over many years. We
              Secretary for Administration responsibility for coordi­        recommended that the internal policies and proce­
              nating a Department-wide corrective action plan to             dures for handling accountable property be
              address lax management of personal property and pro­           consolidated into a single cohesive guiding document
              tect sensitive information. Census had been                    that is routinely updated and readily accessible.
              implementing the Department-wide corrective action
              plan and had also initiated corrective actions of its
              own. Increased management efforts resulted in the
              recovery of about 120 laptops at headquarters and the
              regional offices since September 2006.

              But despite the actions already taken, we found
              Census needs to further strengthen internal controls
              over its accountable property, and we recommended
              a number of additional actions to improve its man­
              agement of personal property.

              Transactions Should Be Recorded Promptly
                                                                                                                                U.S. Census Bureau
              Our review found the property management system
                                                                             Above, a storage room full of equipment no longer in use that has
              was not always current because transactions involving          been identified as excess and is waiting to be removed from the
              property were often not recorded in the Automated              premises at a regional office.
              Property Management System (APMS) promptly. We
              recommended that all such transactions be promptly
                                                                             Property Boards of Review Need to
              recorded; all accountable property on hand at the
              time of an inventory be recorded in APMS; the back­            Be Convened to Prevent Buildup of
              log of Personal Property Control forms (CD-50s) be             Case Backlog
              eliminated; and equipment no longer in use be prop­
              erly and promptly excessed.                                    During our audit, Census reinstated property boards
                                                                             of review to eliminate its backlog of approximately
              Execution of Inventory Procedures                              400 missing, lost, or stolen laptops and 400 other
              Needs Improvement                                              missing items. Census told us new cases resulting
                                                                             from its April/May 2007 inventory were being
                                                                             reviewed. We recommended property boards of
              We found that regional offices did not always have a
                                                                             review be convened as necessary to ensure that no
              member of the inventory team responsible for
                                                                             future backlog of cases accumulates.
              ensuring that all items are scanned and marked dur­
              ing their inventories. Headquarters also encountered
              difficulties performing inventories. We recommend­             Property Management Officer’s
              ed Census issue appropriate guidance on conducting             Responsibilities Should Be Evaluated
              inventories, emphasizing the need for segregation
              of duties.                                                     Although the large volume and value of its geograph­
                                                                             ically dispersed property poses a significant
              Property Management Policies and Inventory                     control challenge for Census, the bureau does not
              Procedures Need to Be Consolidated                             have a full-time property management officer. We
                                                                             recommended the bureau assess whether to create a
                                                                             full-time position solely dedicated to property
              We found that Census’s guidance on conducting
                                                                             management.
              inventories, recovering laptops, and disposing of



                                                                        24
DOC OIG SAR 11-07.qxd   11/27/07   1:36 PM    Page 25




              September 2007—Semiannual Report to Congress                                     Economics and Statistics Administration



              Census agreed with our property management rec­               because—in addition to having unmarked streets and
              ommendations and stated that it had already taken or          houses—they often have high numbers of households
              initiated actions to address them. (Office of Audits:         in which several families share a single residence.
              IG-18387-1)                                                   When enumerators come knocking on Census Day,
                                                                            family members may be unwilling or unable to accu­
                                                                            rately report how many people actually reside at the
                                                                            address. To prompt a fuller accounting of such cases
                                                                            in 2010, Census revised the coverage question on the
              Preparing for Census 2010:                                    enumeration questionnaire by adding a new query
              Test of Update/Enumerate Process                              that specifically asks if other individuals or families
                                                                            reside in the home. It also used a separate, down­
              Reveals Flaws in Maps, Address                                stream operation, called coverage follow-up, for
              Information, and Approach                                     collecting information from households identified
                                                                            through the coverage question as potentially having
              In spring 2006, the Census Bureau tested the                  additional members. These modifications were put to
              update/enumerate process it plans to use in the 2010          the test on the Cheyenne River Reservation.
              decennial census to count American Indians living on
              reservations, Alaska Natives, and other hard-to-count         We evaluated the conduct and early outcomes of the
              rural populations. During update/enumerate, Census            update/enumerate test, taking a specific look at the
              staff go door to door to collect population data. They        impact of the new query on improving “within­
              are also instructed to make any needed corrections to         household coverage”—that is, counting all members
              the bureau-generated maps and address lists they use          of reservation households—and the success of the
              to locate housing units. Census chose South Dakota’s          overall operation in accurately counting the reserva­
              Cheyenne River Reservation as the site for the test—          tion population. We also assessed whether
              a choice we believe was a good one because it posed           enumerators updated maps and address lists correctly
              many of the challenges that have long hindered                and quality control staff provided an effective quality
              efforts to accurately count reservation populations: a        check of these revisions. Our findings are as follows:
              severe housing shortage and expansive, rural geogra­
              phy punctuated by small communities that have
              mostly unnamed streets and unnumbered houses.                 Flawed Update/Enumerate Process and
              Update/enumerate is an extremely labor-intensive              Failure to Complete the Operation
              operation that, in the 2000 decennial, counted
              1.1 million households (of 116 million nationwide)            Undercut the Bureau’s Ability to
              at a cost of $32 million.                                     Improve the Reservation Count in 2010
              American Indians have historically been undercount­           Cheyenne River Reservation, with about 3,000 hous­
              ed in decennial censuses. Enumerating those who live          ing units, was divided into 215 assignment areas,
              on large, rural reservations is especially difficult          each of which needed to be enumerated and then




                                                                       25
DOC OIG SAR 11-07.qxd    11/27/07    1:36 PM     Page 26




              Economics and Statistics Administration                                    September 2007—Semiannual Report to Congress



              pass quality control within a 12-week time frame.                Changes Designed to Improve Coverage
              But 84 areas (39 percent) had not passed quality con­
                                                                               Yielded Negligible Increase in the Count
              trol by the operation’s end and could not produce
              reliable counts. Most tellingly, our analysis of all enu­
                                                                               Disappointed with the results from the 2000 decen­
              merations recorded during both update/enumerate
                                                                               nial coverage question, the bureau decided to revise
              and the subsequent coverage follow-up identified a
                                                                               the 2010 update/enumerate questionnaire to better
              significant number of test enumerators—all residents
                                                                               identify all household members. It did so by adding a
              of the reservation—who were unaccounted for in
                                                                               query about “other individuals or families staying” in
              either operation.
                                                                               the household (see figure below) and assessing the
                                                                               impact of the revision in the 2006 test. It also decid­
              We identified three primary problems that caused fre­            ed to enumerate individuals identified by this new
              quent errors and kept the operation from finishing:              query in the later coverage follow-up operation rather
              (1) The unclear, inaccurate maps and incomplete                  than on the spot, as had been the practice.
              address lists generated during address canvassing and
              supplied to update/enumerate staff prevented enu­                Census identified only 16 households with additional
              merators from finding a significant number of                    residents because of the new query, and only one per­
              housing units and quality control staff from complet­            son in those households was added to the 2006 count.
              ing their follow-up checks. (2) Update/enumerate
              staff did not have GPS technology to compensate for              One factor in the poor outcome may have been a fail­
              the poor maps and address lists. (3) The multitude of            ure to properly test the revised questionnaire: The
              errors made during enumeration overwhelmed the                   majority of enumerators we observed never even
              quality control check, causing a higher than expected            asked respondents the new query. Because Census
              number of areas to fail quality control and require              decennial managers did not adequately monitor enu­
              recanvassing—both of which further crippled the                  merators conducting interviews in the field or their
              progress of the operation.                                       incoming questionnaires, the bureau did not realize


                                       Coverage Question Asked by Enumerators




                                                                                                                            Census Bureau




                                                                          26
DOC OIG SAR 11-07.qxd     11/27/07   1:36 PM   Page 27




              September 2007—Semiannual Report to Congress                                        Economics and Statistics Administration



              enumerators were for the most part not asking the                  ■	   giving update/enumerate staff handheld
              question or that few households were being identified                   computers or inexpensive off-the-shelf GPS
              as having additional people. The bureau also did not                    devices so they can utilize the housing unit
              have benchmarks against which to evaluate test                          GPS coordinate information obtained during
              results and identify problems as the operation pro­                     address canvassing.
              gressed. And the timing of the coverage follow-up
              operation—which continued for 3 months after                   We also recommended that Census
              update/enumerate had concluded—was another like­
              ly factor in the understated results, as respondents               ■	   modify quality control procedures to better
              may not have recalled who was in the household so                       identify missed or duplicated housing units
              many weeks, or even months, earlier.                                    on reservations,

                                                                                 ■	   enhance enumerator training, supervision,
              Leadership Devoted to Transforming                                      and quality control to ensure that the
                                                                                      coverage question is asked as intended, and
              Census’s Approach Is Needed to
              Improve the Count on American Indian                               ■	   reconsider the decision to delay additional
              Reservations                                                            enumerations identified via the coverage
                                                                                      question to coverage follow-up.
              Despite the difficult challenges to improving the
              count of reservation populations, the Census Bureau            (Office of Systems Evaluation: OSE-18027)
              did not have any headquarters official whose princi­
              pal responsibility was to plan and implement the
              2006 update/enumerate test for American Indian
              reservations. Although many employees work on                  Funding Problems Lead
              American Indian issues, no headquarters official was
              assigned leadership responsibility for the operation or        to Backlog at Federal
              charged with the singular task of improving enumer­            Audit Clearinghouse
              ation on reservations for 2010.
                                                                             The Single Audit Act of 1984 established uniform
                                                                             entitywide audit requirements for state and local gov­
              Our Recommendations                                            ernment and nonprofit organizations receiving
                                                                             federal financial assistance. In 1996, Congress
              To improve the count of reservation populations in             amended the act to streamline and improve its effec­
              2010, we recommended that Census give a senior                 tiveness. Currently, all entities expending $500,000
              headquarters official specific responsibility for lead­        or more in federal funds are required to have an
              ing the effort to identify, implement, and monitor             annual single audit.
              changes to the update/enumerate process on
              American Indian reservations. This effort should, at a         Reports required under the act provide valuable
              minimum, generate actions designed to improve the              information on how federal dollars are spent and
              address canvassing operation so that it produces bet­          whether the funds are spent in accordance with appli­
              ter maps and address lists for update/enumerate staff.         cable laws and regulations. The information
              We offered several options for Census to consider in           contained in these reports is used by grant-making
              accomplishing this objective, such as                          agencies to manage more than $450 billion in grants
                                                                             to states, local governments, universities and other
                  ■	   adding current landmark information and               nonprofits. In FY 2006, approximately $1 trillion in
                       community names to maps, and                          federal expenditures were included in single audit
                                                                             reports sent to the Federal Audit Clearinghouse, the
                                                                             repository for all single audit reports.


                                                                        27
DOC OIG SAR 11-07.qxd    11/27/07    1:36 PM     Page 28




              Economics and Statistics Administration                                  September 2007—Semiannual Report to Congress



              The clearinghouse receives between 30,000 and
              40,000 reports each year to process into a govern­               OIG has conducted previous audits of the
              ment-wide database available to the public.                      Federal Audit Clearinghouse. At the request of
              Clearinghouse management and programming staff                   OMB, our office performed two “Agreed Upon
              are part of the Census Bureau’s Governments                      Procedure” reviews of the clearinghouse’s process­
              Division located in Suitland, Maryland. Reports                  ing of single audit reports for fiscal years 1998
              are processed at a Census Bureau facility in                     and 2000. In March 2005, the OIG Office of
              Jeffersonville, Indiana.                                         Audits’ Financial Statements and Accountability
                                                                               Division issued Management Controls Over
              The clearinghouse’s database goes back to 1997 and               Reimbursable Agreements at the U.S. Census
              is accessible on its web site. This web-based system             Bureau Need Improvement.
              allows the public access to audit findings for most
              federal grant programs and also provides government
              managers with information that can be used to iden­            with 16 different federal agencies to ensure cost
              tify major flaws in a program’s administration.                recovery, since FY 2004 funds received through
                                                                             those agreements have not been sufficient to enable
              The Census Bureau is required by federal law, regula­          clearinghouse staff to process all submitted single
              tion, and departmental policy to recover full costs for        audit reports. This lack of funding caused the clear­
              work performed under certain agreements. As a                  inghouse to accumulate a significant backlog of
              result, the clearinghouse is expected to recover the           approximately 36,000 unprocessed reports by
              costs of its operations from the federal agencies it           February 2007, thereby jeopardizing its ability to
              services. To do this, it has entered into reimbursable         provide the critical data contained in the single
              agreements with those agencies. Over the 4 years cov­          audit reports to the grant-making entities that rely
              ered by our audit, the reimbursable agreements                 on it.
              totaled more than $11 million.

              We conducted an audit of the clearinghouse’s reim­
              bursable agreements to match the revenue received by
              the clearinghouse with the costs of operations and
              determine whether the costs charged to the reim­
              bursable agreements are reasonable, allowable, and
              allocable. Originally, the audit scope was to cover the
              period from October 1, 2003, through March 31,
              2006. But once we began our work, Census officials
              requested we expand the audit to include fiscal year
              2003 so we would be reviewing a year not plagued by
              funding issues. Additionally, we expanded the period
              to cover the review of reimbursable agreement                                        http://harvester.census.gov/fac/collect/ddeindex.html

              authorities and signatures for the second half of
              2006. We did not review expenditures for the second            We recommended that officials ensure that only
              half of FY 2006.                                               charges allocable to the clearinghouse project are
                                                                             charged to the project and that personnel who work
              We found that while management oversight on the                on the clearinghouse project are not inappropriately
              allocation of project costs to the appropriate reim­           charged to other Census projects. At the bureau’s sug­
              bursable agreement is generally good, there were a             gestion, we also recommended that Census work
              few instances in which clearinghouse staff had                 with the Office of Management and Budget and
              charged time to different project codes once avail­            other entities to develop a budget that fully funds the
              able funds were exhausted. Furthermore, although               clearinghouse so it can eliminate the current backlog
              Census has entered into reimbursable agreements                as soon as possible.



                                                                        28
DOC OIG SAR 11-07.qxd   11/27/07   1:36 PM    Page 29




              September 2007—Semiannual Report to Congress                                         Economics and Statistics Administration



              The Census Bureau generally agreed with our recom­             Census submitted an action plan in response to our
              mendations and noted that clearinghouse staff is               report that outlined steps to address our recommen­
              carefully examining monthly spending reports,                  dations and set deadlines of October 2006 and
              increasing vigilance over this fiscal year’s project           January 2007 for implementing them. But we found
              charging, and instituting additional internal controls         during our follow-up review that little has occurred.
              over project spending. The clearinghouse will contin­
              ue to work with OMB to improve or replace the                  The bureau has not yet developed adequate FECA
              current reimbursable funding mechanism with a                  training or guidance for supervisors and managers
              more efficient and timely process that transfers               and is still developing a return-to-work strategy for
              approved funding at the beginning of the fiscal year.          2008 dress rehearsal operations—which are already
              (Atlanta Regional Office of Audits: ATL-18113)                 under way—and for the 2010 census. The bureau has
                                                                             been collaborating with the Department to identify
                                                                             claimants from past decennials who could be offered
                                                                             jobs, but no offers have been extended.
              Census 2010: Little Progress Has                               Census officials advised us that they have been unable
              Been Made on a Workers’                                        to implement their plans for addressing the recom­
              Compensation Strategy for                                      mendations in our 2006 report for a variety of
                                                                             reasons, one being the disruption of relocating staff
              Temporary Hires                                                to the bureau’s new headquarters building this past
                                                                             spring. They also questioned the wisdom of training
              During this semiannual period, we followed up on               field supervisors to be more involved in the workers’
              our March 2006 review of the Federal Employees’                compensation program, believing this additional
              Compensation Act (FECA) program at Commerce,                   responsibility might negatively impact their ability to
              looking at the Census Bureau’s progress in developing          accurately count the population within allotted time
              a plan to handle workers’ compensation claims that             frames. Finally, they said they may have been
              arise during 2010 decennial and preceding activities           overzealous in estimating how quickly they could
              and to reemploy claimants who have been on the                 coordinate with Commerce’s Office of Human
              FECA rolls since the 1990 and 2000 censuses.                   Resources Management (OHRM) and the
                                                                             Department of Labor to develop a viable workers’
              Our 2006 report found that Census’s FECA costs                 compensation strategy.
              accounted for nearly 40 percent of the Department’s
              total FECA spending ($5.59 million of $14.5 mil­               In our follow-up report, we reiterated our recommen­
              lion) during the 12-month period we examined (July             dations that Census
              2004 through June 2005). These costs were substan­
              tially higher at census time: for example, from July               ■	   develop a comprehensive workers’
              2000 through June 2001, as the 2000 decennial was                       compensation management initiative for the
              under way, Census paid almost $14.2 million in                          2010 decennial, incorporate related guidance
              FECA benefits. Many of these claims came from                           into training and administrative manuals for
              temporary workers hired to collect census data in the                   both the 2008 dress rehearsal and 2010
              field. Opportunities for reemployment dwindle as                        operations, and train all relevant headquarters,
              decennial operations wind down, and those who are                       regional, and field staff on the initiative;
              not offered a job can remain on the rolls for years. We
              identified 44 active claims from the 1990 decennial                ■	   bring together human resources, decennial
              and 183 from Census 2000. We recommended that                           management, field operations, and
              Census, together with the Department, identify all                      administrative staff to develop and implement
              other claimants who are able to return to work and                      a comprehensive return-to-work strategy for
              take necessary actions to bring them back on the job                    employees injured during 2010 operations as
              as soon as possible.                                                    well as for claimants already on the rolls; and



                                                                        29
DOC OIG SAR 11-07.qxd      11/27/07      1:36 PM       Page 30




              Economics and Statistics Administration                                                  September 2007—Semiannual Report to Congress



                   ■	   identify claimants who could be rehired for                         completed some actions, such as obtaining access to
                        2010 operations and work with the                                   case files of claimants who worked in previous
                        departments of Commerce and Labor to                                Census operations to evaluate their return-to-work
                        bring them back on the job as soon as                               potential and analyzing employment potential for
                        possible or otherwise remove them from the                          some claimants in the current dress rehearsal opera­
                        workers’ compensation rolls.                                        tions. In its response to our draft report, Census
                                                                                            advised us that it has reached internal agreement on
                                                                                            an approach for a more robust workers’ compensa­
                                                                                            tion program that includes increased and integrated
                                                                                            headquarters management and oversight by the
                                                                                            bureau’s human resources, decennial management,
                                                                                            and field operations staff. The bureau also reported
                                                                                            that it is working with OHRM to determine and
                                                                                            finalize the proper resource allocations and contract
                                                                                            options for operating the program and managing the
                                                                                            caseload of injuries that result from the dress rehears­
                                                                                            al and 2010 decennial census. In addition, the
                                                                                            bureau reported sending letters to 73 recipients
                                                                                            from the 1990 and 2000 censuses, seeking
                                                                                            information it needs to extend job offers for 2010
                                                                                            decennial operations.

                                                                                            Commerce’s Chief Financial Officer and Assistant
                                                                                            Secretary for Administration concurred with our rec­
                                                                                            ommendation addressed to the Department. He
                                                                                            indicated that OHRM’s Office of Occupational
                                                                                            Safety and Health continues to take additional
                                                                                            actions to address this recommendation and those
                                                                                            from our March 2006 report. It is facilitating
                                                                    US Census Bureau
                                                                                            arrangements to send departmental workers’ com­
              During every decennial census, the Census Bureau hires thousands
              of temporary workers for jobs that last from several weeks to several
                                                                                            pensation case files from the regional offices of DOL’s
              months. If these employees are hurt on the job, they qualify for              Office of Workers’ Compensation Programs to
              workers’ compensation benefits. Moving them off the rolls is                  Commerce headquarters. He stated that this will
              especially difficult because opportunities for reemployment dwindle           eliminate the need to travel to DOL’s regional offices
              as census operations wind down.                                               and enable the Department and Census to more eas­
                                                                                            ily obtain the medical information needed to identify
              We also recommended that Census evaluate and                                  and process potential return-to-work cases. (Office of
              adopt alternative hiring options for reemploying                              Inspections and Program Evaluations: IPE-18592)
              decennial claimants or helping them find jobs at
              other agencies or private firms, and that the
              Department’s Chief Financial Officer work with the
              bureau’s director to strengthen Census’s management                           C&A of Census Systems Shows
              of its workers’ compensation program and thereby
              reduce the costs of the 2008 dress rehearsal and                              Mixed Results in FISMA Reviews
              2010 census.
                                                                                            To meet our FY 2007 FISMA reporting require­
              The Census Bureau did not agree with several find­                            ments, we evaluated the Census Bureau’s Client
              ings in our draft report, but concurred with our four                         Services General Support System and the AESDirect
              recommendations. It indicated that it had already                             Major Application, which is a contractor system.



                                                                                       30
DOC OIG SAR 11-07.qxd     11/27/07   1:36 PM    Page 31




              September 2007—Semiannual Report to Congress	                                        Economics and Statistics Administration




              Client Services General Support System                              ■	   Significant vulnerabilities were not
                                                                                       addressed in the security assessment report
              Our review of Census’s Client Services General                           or documented in the plan of action
              Support System revealed the following:                                   and milestones.

                  ■	   The system security plan did not describe                  ■	   Significant vulnerabilities were not remedied
                       significant environmental and technical                         in a timely manner.
                       factors and application security controls.
                                                                              The system security plan was generally adequate but
                  ■	   Census has developed a process to scan most            security control descriptions need to be improved.
                       workstations and laptops for vulnerabilities,          Based on our review, we concluded that security con­
                       but used outdated scanning signatures.                 trols were not adequately assessed for certification
                                                                              and accreditation and that the authorizing official did
                  ■	   Secure configuration settings were not
                not have enough information to make a credible,
                       evaluated for some IT products. 
                      risk-based accreditation decision.

                  ■	   Security controls for mobile code were not             Census agreed that some security controls were not
                       adequately documented or assessed.                     adequately assessed for certification and accreditation
                                                                              and indicated that all vulnerabilities identified both
              We concluded that the certification and accreditation           in our report and Census’s own testing have been or
              of this system was compliant with FISMA require­                will be tracked on a plan of action and milestones.
              ments. Evidence that mitigates most of our concerns             The bureau noted that mitigation of the vulnerabili­
              about the use of outdated scanning signatures—a                 ties had already begun.
              patch management tool that maintains up-to-date
              patches and patch history—was available, but was                The bureau did not agree with our conclusion that
              not part of the C&A package. However, better meth­              the authorizing official did not have enough informa­
              ods of certification testing are needed to give                 tion to make a credible, risk-based accreditation
              authorizing officials more complete information.                decision. The bureau maintained that the informa­
                                                                              tion not available to the authorizing official would
              Census concurred with all but one of our recommen­              have made no difference in the accreditation decision
              dations and identified actions it will take to address          and that the system had not had a single document­
              them. With that one exception, the bureau’s actions             ed security incident in its 10 years of operation.
              were responsive to our recommendations.                         However, our report cited numerous examples of
                                                                              inadequate controls assessment, which suggests the
                                                                              potential for significant unknown vulnerabilities to
                                                                              exist. Better controls assessment may have identified
              AESDirect Major Application
                                                                              additional vulnerabilities. Moreover, the lack of doc­
              Our review of AESDirect showed a number of prob­                umented security incidents was not persuasive
              lems, including the following:                                  evidence that the security controls are adequate, par­
                                                                              ticularly since Census itself identified the absence of
                  ■	   Secure configuration settings were not defined         controls necessary for the detection of security
                       for most IT products and none were assessed.           breaches, and thus could be unaware of whether secu­
                                                                              rity incidents have occurred. (Office of Systems
                  ■    Assessment of security controls was incomplete.        Evaluation: OSE-18690-1 and -2)




                                                                         31
DOC OIG SAR 11-07.qxd   11/27/07   1:36 PM   Page 32




                                                                                                      Photo Courtesy 1WTC, LLC
                                                       An artist’s rendering of the future Freedom Tower and New York Harbor at
                                                                      the site of the former twin towers of the World Trade Center.
DOC OIG SAR 11-07.qxd   11/27/07   1:36 PM   Page 33




                              INTERNATIONAL TRADE

                                 ADMINISTRATION


              T    he International Trade Administration is responsible for trade promotion and policy issues associated
                   with most nonagricultural goods and services. ITA works with the Office of the U.S. Trade Representative
              to coordinate U.S. trade policy and with other agencies to coordinate U.S. trade promotion efforts. ITA has
              four principal units:

                  Market Access and Compliance develops and implements international economic policies of a bilateral,
                  multilateral, or regional nature, and participates in trade negotiations. Its main objectives are to obtain
                  market access for American firms and workers and to ensure full compliance by foreign nations with trade
                  agreements signed with the United States.

                  Manufacturing and Services undertakes industry trade analysis, shapes U.S. trade policy, participates in
                  trade negotiations, organizes trade capacity-building programs, and evaluates the impact of domestic and
                  international economic and regulatory policies on U.S. manufacturers and service industries.

                  Import Administration defends American industry against injurious and unfair trade practices by
                  administering the antidumping and countervailing duty laws of the United States and enforcing other trade
                  laws and agreements negotiated to address such trade practices.

                  U.S. Commercial Service seeks to promote economic prosperity, enhance U.S. job creation, and
                  strengthen national security through a global network of international trade professionals. CS promotes
                  and protects U.S. commercial interests abroad and delivers customized solutions to help U.S. businesses,
                  especially small and medium-sized enterprises, compete effectively in the global marketplace.




              National Export Strategy                                   Trade Promotion Coordinating Committee (TPCC)
                                                                         develops an annual National Export Strategy report
              Document Would Benefit from                                that is supposed to (1) establish government-wide
              Greater Interagency Involvement                            priorities for federal export promotion and financing
                                                                         activities and (2) provide a plan to bring those activ­
              and Clear Goals                                            ities of the TPCC agencies into line with the
                                                                         priorities. The annual National Export Strategy report
              In response to the requirements of the Export              is sent by the TPCC chairman (the Secretary of
              Enhancement Act of 1992 and Executive Order                Commerce) to Congress with the approval of the
              12870, which implemented the act, the interagency          President. The act also intended for the strategy to



                                                                    33
DOC OIG SAR 11-07.qxd    11/27/07     1:36 PM      Page 34




              International Trade Administration                                            September 2007—Semiannual Report to Congress



              help eliminate overlap and duplication among feder­                                                ITA management out­
              al export promotion activities, propose an annual                                                  line the basic themes
              unified federal trade promotion budget to the                                                      and priorities for the
              President (through OMB), and promote cooperation                                                   strategy without direct
              between state and federal export promotion activities.                                             consultation with other
                                                                                                                 TPCC agencies. While
              During the course of our recent review of                                                          the Secretariat does
              Commerce’s trade promotion efforts and the coordi­                                                 maintain regular contact
              nation of those efforts with other stakeholders (see                                               with member agencies
              March 2007 Semiannual Report, pages 37-40), we                                                        on trade-related issues
              identified some ways the Department could enhance                                                     and solicits their
              the process used to develop the annual National                                                       comments on the
              Export Strategy. Our original review, which was                                                       draft annual report,
              requested by three members of Congress, including                                                     the process used to
              the then-Chairman of the House Small Business                                                         develop the annual
              Committee, was coordinated with OIGs from the                                                         reports does not pro­
              departments of State, Agriculture, and the Treasury,                                                  mote the active
              the U.S. Agency for International Development, the                                                    involvement of the
              Small Business Administration, and the Millennium                                                     other TPCC member
              Challenge Corporation.                                                                                agencies, nor leverage
                                                                                                                    their expertise in
              We did not originally set out to comment on the                                                       developing the basic
              National Export Strategy, but agreed to address this                                            ITA   strategic objectives.
              issue in a separate memorandum report at the request
              of some of the other OIGs involved in the intera­              The National Export Strategy Does Not
              gency review, who had raised several concerns about            Establish Specific Export Promotion Goals
              Commerce’s development of the annual strategy.                 or Use Performance Measures to Track
                                                                             Program Success

              What We Found                                                  In a 2002 report, the Government Account-ability
                                                                             Office reported that the National Export Strategy was
              We found the annual National Export Strategy reports           too broad and did not discuss government-wide spe­
              often outline useful strategies and initiatives—such as        cific goals or assess progress toward meeting those
              the promotion of public-private partnerships—with­             goals.5 Our review of subsequent National Export
              in the context of discussing ongoing federal trade             Strategy reports for 2002-2006 showed that little had
              promotion efforts. These reports do not, however,              changed. Absent the specific export promotion goals
              articulate a strategy, establish consistent export pro­        that GAO recommended, the annual export strategy
              motion goals, align agency-specific strategic                  did not provide an effective framework for focusing
              objectives with government-wide export promotion               the activities of TPCC agencies to meet core export
              strategic goals, or track agencies’ actual progress            promotion priorities. Moreover, lacking usable per­
              toward those goals.                                            formance measures—which are required of all
                                                                             member agencies—TPCC cannot evaluate or report
              Commerce Should Establish a More Inclusive                     on the agencies’ progress toward federal export pro­
              Process for Developing the National Export                     motion priorities.
              Strategy Reports

              Under the current process used to develop the annu­            5
                                                                                 Export Promotion: Mixed Progress in Achieving a Government-
              al National Export Strategy, the TPCC Secretariat and              wide Strategy, GAO-02-850, September 4, 2002.




                                                                        34
DOC OIG SAR 11-07.qxd   11/27/07   1:36 PM    Page 35




              September 2007—Semiannual Report to Congress                                          International Trade Administration




              Improvements Are Noted in the 2007 National
              Export Strategy                                                       TPCC Active Member Agencies
                                                                               U.S. Department of Commerce
              Our final report notes that the 2007 National Export
                                                                               Export-Import Bank of the United States
              Strategy, which was released several months after our
              draft report, contained significant improvements that            Overseas Private Investment Corporation
              address some of the issues raised during our review,             U.S. Trade and Development Agency
              including (1) a clearer and more complete presenta­              U.S. Small Business Administration
              tion of federal export promotion priorities and (2) an
                                                                               U.S. Department of Agriculture
              appendix that details the strategic objectives of the
              primary TPCC agencies and summarizes the agen­                   U.S. Department of State
              cies’ 2006 activities that are responsive to those               U.S. Department of Treasury
              strategies. However, further enhancements are neces­             Office of the U.S. Trade Representative
              sary to fully implement our recommendations.
                                                                               U.S. Agency for International Development
              The TPCC May Not Include All                                     U.S. Environmental Protection Agency
              Relevant Agencies                                                U.S. Department of Defense
                                                                               U.S. Department of Energy
              The roster of TPCC members was established by
                                                                               U.S. Department of Interior
              Executive Order in 1993 and was last updated in
              2003 to include the Department of Homeland                       U.S. Department of Labor
              Security (DHS), although DHS was not an active                   U.S. Department of Transportation
              TPCC member at the time of our review. The                       Office of Management and Budget
              Millennium Challenge Corporation (MCC), estab­
              lished in 2004, is a U.S. government-owned                       National Security Council/National
              corporation with the stated mission to help reduce               Economic Council
              worldwide poverty through economic growth, while                 Council of Economic Advisers
              targeting aid to reward countries with good public
              policies. Since its inception, MCC has received
              approximately $4 billion in federal appropriations.
              As part of its efforts to promote economic develop­           Our Recommendations
              ment, MCC sponsors projects to increase the trade
              capacity of developing countries. These projects can
                                                                            We recommended that ITA institute a meaningful
              complement federal export promotion efforts by
                                                                            interagency strategic planning process that identifies
              helping improve access to foreign markets for U.S.
                                                                            the core strategic goals and objectives of federal
              products and creating other opportunities for U.S.
                                                                            export promotion efforts through an interagency
              exporters. We recognize that MCC may be reluctant
                                                                            consultative process; aligns agency-specific strategic
              to be included as a TPCC member because it wants
                                                                            objectives with government-wide export promotion
              to avoid the perception that its development efforts
                                                                            strategic goals; identifies any agency-specific per­
              are linked to U.S. export promotion priorities, but
                                                                            formance measures relevant to government-wide
              we recommended in our March 2007 report on trade
                                                                            export promotion goals; and uses these measures to
              coordination that MCC be included in relevant
                                                                            evaluate the progress of agencies toward meeting gov­
              TPCC working groups.
                                                                            ernment-wide export promotion goals. We also
                                                                            recommended ITA continue to engage MCC on
                                                                            trade promotion activities and use appropriate chan­
                                                                            nels to request Presidential approval to update the
                                                                            TPCC membership to include all relevant federal
                                                                            trade promotion agencies.



                                                                       35
DOC OIG SAR 11-07.qxd    11/27/07     1:36 PM      Page 36




              International Trade Administration                                         September 2007—Semiannual Report to Congress




              ITA’s Response                                                  Common Controls, Contingency Plan
                                                                              Not Tested
              The Deputy Under Secretary for International Trade
              provided a thorough response to our draft report that           The C&A team did not evaluate “common” con­
              noted disagreement with many of our conclusions.                trols—controls belonging to a different ITA system
              ITA did not concur with our conclusion that the                 but that also protect the core network. Though these
              TPCC agencies were not adequately engaged in the                controls were outside the core network’s accreditation
              development of the 2007 National Export Strategy,               boundary, they needed to be assessed to show they
              nor did it concur with our proposed changes to the              were effectively protecting the core network.
              TPCC strategic planning process. However, ITA’s
              response also highlighted some actions that the                 Also, ITA did not test the contingency plan—a
              TPCC Secretariat planned to take to address our rec­            required annual event—and the plan did not address
              ommendations and enhance its strategic planning                 the procedures and activities for restoring operations
              process. ITA also indicated its continued commit­               after a disruption or failure. ITA subsequently gave us
              ment to work with MCC, whenever practical, and to               a document titled Network Shutdown Procedures and
              determine ways to increase the visibility of MCC                Network Restore Procedures. But this document was
              opportunities with the U.S. exporting community.                limited—it addressed protocols for shutting down
              We made changes in our final report to clarify some             and restarting the network but omitted other impor­
              of the language, better articulate the ongoing efforts          tant procedures necessary to restore operations. The
              of the TPCC Secretariat, and recognize progress                 contingency plan also did not specify emergency sce­
              made in the 2007 National Export Strategy. (Office of           narios that require annual testing.
              Inspections and Program Evaluations: IPE-18589)
                                                                              We recommended that ITA (1) assess all components
                                                                              that implement security controls for a system prior to
              ITA’s C&A Process Gave Officials                                or during certification and accreditation; (2) incorpo­
                                                                              rate into the contingency plan, procedures and
              Sufficient Information to Approve                               activities for restoring operations after a failure or dis­
              System Operation                                                ruption, in accordance with Department policy; and
                                                                              (3) test the plan annually and document its scope,
              As part of our FY 2007 FISMA work, we examined                  procedures, scenarios, and results.
              the adequacy of ITA’s certification and accreditation
              of its Core Network General Support System.
              Though not without deficiencies, the C&A process
              was generally sound. Certification testing adequately             “Each federal agency shall develop, document,
              assessed the required security controls. Certification            and implement an agency-wide information
              activities provided sufficient basis for the authorizing          security program to provide information security
              official to make a credible, risk-based decision to               for the information and information systems that
              approve system operation.                                         support the operations and assets of the agency,
                                                                                including those provided or managed by another
              ITA’s assessment process was solid: procedures and                agency, contractor, or other source…”
              expected results were well-defined, and actual results
                                                                                                    —Federal Information Security
              were clearly documented for each tested procedure.
                                                                                                     Management Act of 2002
              By carefully defining procedures and expected results,
              and thoroughly documenting actual outcomes, the
              certification agent could accurately determine which
              security controls are implemented properly, recom­              ITA officials concurred with our recommendations
              mend specific corrective actions, and clearly present           and noted that in the future, the agency will assess
              to the authorizing official the risks associated with           components that are not a part of an information
              the remaining vulnerabilities.                                  system’s accreditation boundary prior to completing


                                                                         36
DOC OIG SAR 11-07.qxd   11/27/07    1:36 PM    Page 37




              September 2007—Semiannual Report to Congress                    International Trade Administration



              that system’s certification and accreditation. Officials
              also stated that they are developing procedures to
              restore system operations after a failure or disruption,
              and should be finished testing these procedures by
              the end of calendar year 2007. ITA is using detailed
              agency-defined scenarios in the tests and will
              summarize all results. (Office of Systems Evaluation:
              OSE-18840)




                                                                         37
DOC OIG SAR 11-07.qxd   11/27/07   1:36 PM   Page 38




                                                                                    Photo Courtesy NIST/Copyright Robert Rathe
                                                       Physicist Richard Steiner adjusts the electronic kilogram, an experimental
                                                          apparatus for defining mass in terms of the basic properties of nature.
DOC OIG SAR 11-07.qxd   11/27/07   1:37 PM   Page 39




                     NATIONAL INSTITUTE OF

                  STANDARDS AND TECHNOLOGY


              T   he National Institute of Standards and Technology promotes U.S. innovation and industrial competitiveness
                  by advancing measurement science, standards, and technology in ways that enhance economic security and
              improve quality of life. NIST manages four programs: the Advanced Technology Program, the Manufacturing
              Extension Partnership program, the Baldrige National Quality Program, and NIST Research Laboratories.




              Audit Questions $1.4 Million in                               $1,430,562 in costs claimed on the two awards, the
                                                                            bulk of them unallowable payroll charges. We recom­
              Costs Claimed on ATP Projects                                 mended that for the first award, NIST disallow
                                                                            $752,951 in questioned costs and recover $726,798
              A California company specializing in medical diagnos­         in federal funds, and for the second award, disallow
              tic technologies for musculoskeletal diseases received        $677,611 in questioned costs and recover that
              two Advanced Technology Program (ATP) awards to               amount in full.
              develop new tools for detecting and managing arthri­
              tis and osteoporosis. The first, awarded in September         The company concurred with our recommendations.
              2000, was for a 3-year project with total costs of            (Atlanta Office of Audits: ATL-18418)
              $1,960,181. The second, awarded in May 2002, had a
              2-year term and total costs of $1,977,613.

              In 2004 the firm’s new CEO—on advice from outside
              counsel—asked a forensic accounting specialist to
              review the awards. The specialist confirmed that the
              company had billed NIST approximately $1 million
              for hours not worked on the projects. In February
              2005, company officials reported the overcharge to
              NIST and offered to repay the funds. But the NIST
              grants officer wanted both awards audited in accor­
              dance with ATP guidelines to verify the amount due.

              Our audit examined the financial status of the awards
              as well as whether the company had complied with
              applicable laws and regulations and had claimed
              reasonable and allowable costs. The audit covered
              the period from November 1, 2000, through
              August 31, 2004.
                                                                                                                          National Institutes of Health
                                                                            A California firm received ATP funds to develop new diagnostic
              We found that the firm’s financial management sys­            and treatment tools for arthritis and osteoporosis. Roughly a third
              tem was inadequate and questioned a total of                  of the money was used for unallowable payroll expenses.



                                                                       39
DOC OIG SAR 11-07.qxd   11/27/07   1:37 PM   Page 40




                                                                              Photo Courtesy NOAA/R. Bray
                                                       Underwater research at St. Croix, U.S. Virgin Islands.
DOC OIG SAR 11-07.qxd   11/27/07   1:37 PM   Page 41




                   NATIONAL OCEANIC AND

                ATMOSPHERIC ADMINISTRATION


              T   he National Oceanic and Atmospheric Administration studies climate and global change; ensures the
                  protection of coastal oceans and the management of marine resources; provides weather services; and
              manages worldwide environmental data. NOAA does this through the following organizations:

                  National Weather Service reports the weather of the United States and provides weather forecasts and
                  warnings to the general public.

                  National Ocean Service provides products, services, and information that promote safe navigation,
                  support coastal communities, sustain marine ecosystems, and mitigate coastal hazards.

                  National Marine Fisheries Service conducts a program of management, research, and services related to
                  the protection and rational use of living marine resources.

                  National Environmental Satellite, Data, and Information Service observes the environment by
                  operating a national satellite system.

                  Office of Oceanic and Atmospheric Research conducts research related to the oceans and Great Lakes, the
                  lower and upper atmosphere, space environment, and the Earth.

                  Office of Program Planning and Integration develops and coordinates NOAAs’ strategic plan, supports
                  organization-wide planning activities, guides managers and employees on program and performance
                  management, and integrates policy analyses with decision-making.



              Flaws Remain in C&A Process for                            Our evaluation of the C&A package found improve­
                                                                         ments over an earlier version we reviewed, particularly
              Network Operations Center                                  in its description of system components and scanning
                                                                         for network vulnerabilities. But we noted numerous
              As part of our FY 2007 FISMA work, we assessed             deficiencies in NOAA’s C&A process that require
              NOAA’s certification and accreditation process and         management attention, including the following:
              security configuration settings for its Network
              Operations Center (NOC). The center provides                   ■	   The system security plan was inadequate. For
              regional network backbone and Internet connectivity                 example, it did not describe the functional
              for NOAA headquarters in Silver Spring, Maryland,                   properties of controls and often did not
              and other locations in the Washington, D.C., area.                  address applicable control requirements.


                                                                    41
DOC OIG SAR 11-07.qxd     11/27/07    1:37 PM   Page 42




              National Oceanic and Atmospheric Administration	                              September 2007—Semiannual Report to Congress



                  ■	   The security certification had serious flaws              National Marine Sanctuary Program
                       and omissions. It failed to identify
                       vulnerabilities on some components, report                Authorized by the National Marine Sanctuaries Act,
                       those identified on others, and assess controls           the sanctuary program manages and protects
                       described in the security plan.                           13 sanctuaries and a marine national monument
                                                                                 that have conservation, historical, or scientific
                  ■	   Critical security services were overlooked.               importance. National marine sanctuaries range in size
                       There was no evidence that the certification              from one-quarter square mile in American Samoa’s
                       team had assessed certain applications and                Fagatele Bay to more than 5,300 square miles in
                       system components providing critical security             Monterey Bay, California. With the addition of the
                       services for the NOC.                                     Papahanaumokuakea Marine National Monument
                                                                                 (northwestern Hawaiian Islands) in 2006—at
                  ■	   Secure configurations were inadequately                   138,000 square miles the largest marine protected
                       defined and assessed.                                     area in the world—the sanctuaries now encompass
                                                                                 more than 158,000 square miles of ocean and Great
              We concluded that the authorizing official lacked                  Lakes marine habitats. The special habitats of the
              information needed on remaining vulnerabilities to                 sanctuaries include coral reefs, whale migration
              make a credible, risk-based accreditation decision.                corridors, deep sea canyons, kelp forests, and sea grass
              NOAA concurred with our recommendations and                        beds. Historic shipwrecks are also protected. The
              stated that it has implemented a continuous monitor­               program’s primary mission is resource protection, but
              ing program to correct deficiencies in the security                it must also facilitate compatible public and
              plan as well as to reassess security controls and                  commercial uses along with conservation and
              settings. (Office of Systems Evaluation: OSE-18688)                research activities. We are evaluating whether the
                                                                                 program is successfully (1) providing for the long-
                                                                                 term protection of marine and cultural resources
                                                                                 and (2) collaborating with other NOAA offices, and
                                                                                 with federal, state, and local entities involved in
              Work in Progress                                                   developing and managing marine protected areas,
                                                                                 enforcing sanctuary regulations, and conducting
              We have a number of reviews in progress that are                   scientific research.
              assessing key NOAA programs and activities, includ­
              ing the following:
                                                                                 National Data Buoy Center
              Fisheries Finance Loan Program                                     The National Data Buoy Center is part of the
                                                                                 National Weather Service. The center operates four
              We are evaluating the National Marine Fisheries                    marine observation systems—weather buoys, coastal
              Service’s management of this program, which offers                 marine observing stations, tsunami detection buoys,
              long-term loans to the commercial fishing industry to              and climate monitoring buoys. These systems provide
              refinance or refurbish fishing vessels that do not add             critical data on oceanic and atmospheric conditions
              capacity to the fisheries, shoreside processing facilities,        that is used by weather and hurricane forecasters,
              and aquaculture facilities while reducing overfishing              researchers, climatologists, oceanographers, commer­
              and revitalizing fisheries. Since 1998, NMFS has                   cial fishermen, and recreational boaters. We are
              made approximately 200 loans, for a total of nearly                assessing whether the center effectively maintains and
              $300 million. We will consider the impact that any                 repairs its marine buoys and coastal marine stations
              management deficiencies we may identify could have                 and whether it distributes adequate and reliable data
              on NOAA’s ability to rebuild and sustain fisheries.                from these observing platforms to meet the needs of




                                                                            42
DOC OIG SAR 11-07.qxd     11/27/07      1:37 PM      Page 43




              September 2007—Semiannual Report to Congress                                             National Oceanic and Atmospheric Administration



              the data users. We also are reviewing the structure of                         Stifling of Scientists
              the center’s support services contract for buoy main­
              tenance and repair and how NOAA manages                                        In response to a request from Congress, we are exam­
              and oversees that contract, which is worth up to                               ining allegations that the Department and NOAA
              $500 million over a potential 10-year term.                                    have stifled the release of scientific information by
                                                                                             thwarting scientists’ access to the media and blocking
                                                                                             publication of a specific report on global warming.
                                                                                             We are reviewing policies for media access and public
                                                                                             release of research data at both the Department and
                                                                                             NOAA and assessing whether officials at either
                                                                                             organization deliberately blocked the dissemination
                                                                                             of a hurricane fact sheet that included a discussion of
                                                                                             climate change and hurricane intensity. We anticipate
                                                                                             issuing our report in the coming months.




                                                        Alaska Ocean Observing System
              This NOAA data buoy, one of five located in Prince William
              Sound, Alaska, senses and transmits meteorological information for
              weather forecasting.




                                                                                        43
DOC OIG SAR 11-07.qxd   11/27/07   1:37 PM   Page 44




                                                                                       Photo Courtesy USPTO
                                                       The glass-enclosed atrium of USPTO’s new headquarters.
DOC OIG SAR 11-07.qxd     11/27/07   1:37 PM   Page 45




                         UNITED STATES PATENT AND

                            TRADEMARK OFFICE


              T    he United States Patent and Trademark Office administers the nations’ patent and trademark laws.
                   Patents are granted and trademarks registered under a system intended to provide incentives to invent,
              invest in research, commercialize new technology, and draw attention to inventions that would otherwise go
              unnoticed. USPTO also collects, assembles, publishes, and disseminates technological information disclosed
              in patents.



              C&A Inadequacies Revealed in                                      ■	   incomplete and questionable rationales were
                                                                                     used to reduce risk levels of several remaining
              FISMA Reviews                                                          vulnerabilities.

              To meet our FY 2007 FISMA reporting require­                  We concluded that the authorizing official lacked
              ments, we evaluated USPTO’s certification and                 sufficient information about the remaining vulnera­
              accreditation for the Patent Search System—Primary            bilities and their associated risk to make a credible
              Search and Retrieval, and the Project Performance             risk-based decision on whether to accredit the system.
              Corporation (PPC) General Support System, which
              is a contractor system.                                       USPTO concurred with all of our recommendations,
                                                                            but did not agree with our conclusion. The agency
                                                                            contended that all controls were properly assessed
              Patent Search System—Primary                                  and that the evidence for the authorizing official was
                                                                            sufficient, but noted that more detailed evidence
              Search and Retrieval                                          would be provided to this official in the future. The
                                                                            response described improvements that have been
              Our review of the Patent Search System—Primary                made in IT security in FY 2007.
              Search and Retrieval revealed

                  ■	   security controls were not adequately defined
                       prior to the certification phase;                    PPC General Support System

                  ■	   certification assessment was incomplete and          Our review of the PPC General Support System
                       lacked adequate supporting evidence;                 revealed

                  ■	   the authorizing official did not receive                 ■	   the system security plan was generally

                       accurate information on the status of secure                  adequate but inaccuracies need to

                       configuration settings; and                                   be addressed;



                                                                       45
DOC OIG SAR 11-07.qxd     11/27/07    1:37 PM    Page 46




              United States Patent and Trademark Office 	                              September 2007—Semiannual Report to Congress



                  ■	   secure configuration settings were not defined        USPTO concurred with all of our recommendations,
                       for most information technology products              but took issue with our conclusion. USPTO stated
                       and none were assessed;                               that the authorizing official was provided sufficient
                                                                             documentation to adequately and accurately assess
                  ■	   certification assessments did not adequately          the risks associated with granting the authority to
                       evaluate controls on system components and            operate the contractor system. The response also
                       assessment evidence was minimal; and                  claimed that contingency planning and testing were
                                                                             adequate given the criticality of the system. As in its
                  ■	   contingency planning and testing did not              response to our assessment of the Patent Search
                       provide adequate assurance that operations            System—Primary Search and Retrieval, USPTO
                       can be restored.                                      described improvements that have been made in IT
                                                                             security in FY 2007. (Office of Systems Evaluation:
              We concluded the security controls were not ade­               OSE-18841-1 and -2)
              quately assessed for certification and accreditation
              and the authorizing official did not have enough
              information to make a credible, risk-based accredita­
              tion decision.




                                                                        46
DOC OIG SAR 11-07.qxd   11/27/07    1:37 PM    Page 47




                                      DEPARTMENT-WIDE

                                        MANAGEMENT


              T    he United States Department of Commerce creates the conditions for economic growth and opportunity
                   by promoting innovation, entrepreneurship, competitiveness, and stewardship. The Department has three
              stated strategic goals:

                  Goal 1: Provide the information and tools to maximize U.S. competitiveness. 


                  Goal 2: Foster science and technological leadership by protecting intellectual property, enhancing technical

                  standards, and advancing measurement science. 


                  Goal 3: Observe, protect, and manage the Earths’ resources to promote environmental stewardship.

              The Department has also established a Management Integration Goal that is equally important to all bureaus:
              Achieve organizational and management excellence.



              Preaward Financial                                              OIG and the Department determined that there are
                                                                              several categories of recipients for whom the costs
              Assistance Screening                                            and administrative burden of the screening process
                                                                              may well outweigh the government’s risk of financial
              As part of our ongoing emphasis on prevention of                loss. The current policies exempt from review, recipi­
              fraud, waste, and abuse, we continue to work with the           ents who (1) receive awards in amounts of $100,000
              Office of Acquisition Management, NOAA and                      or less; (2) have received financial assistance from the
              NIST grant offices, and EDA program offices to                  Department for 3 or more consecutive years without
              screen proposed grants and cooperative agreements               any adverse program or audit findings; or (3) are
              before they are awarded. Our screening serves two               units of a state or local government.
              functions: it provides information on whether the
              applicant has unresolved audit findings and recom­              During this semiannual period we screened 182 pro­
              mendations on earlier awards, and it identifies any             posed awards. For 72 of the awards, we found major
              negative financial or investigative history on individu­        deficiencies that could affect the ability of the prospec­
              als or organizations connected with a proposed award.           tive recipients to maintain proper control over federal
                                                                              funds. On the basis of the information we provided,
              On January 1, 2004, we implemented new policies                 the Department delayed 35 awards and established
              and procedures for our preaward screening process.              special award conditions for 37. (Office of Audits)




                                                                         47
DOC OIG SAR 11-07.qxd   11/27/07   1:37 PM    Page 48




              Department-wide Management                                                 September 2007—Semiannual Report to Congress



                                                                             The following table shows a breakdown by bureau
                                                                             of approximately $429 million in Commerce
                                                                             funds audited.




              Nonfederal Audit Activities
              In addition to undergoing OIG-performed audits,
              certain recipients of Commerce financial assistance
              are periodically examined by state and local govern­
              ment auditors and by independent public
              accountants. OMB Circular A-133, Audits of States,
              Local Governments, and Non-Profit Organizations, sets
              forth the audit requirements for most of these audits.         * Includes $45,402,676 in ATP program-specific audits.
              For-profit organizations that receive Advanced
              Technology Program funds from NIST are audited
              in accordance with Government Auditing
                                                                             We identified a total of $7,028,184 in federal ques­
              Standards and NIST Program-Specific Audit
                                                                             tioned costs and $456,405 in funds to be put to
              Guidelines for ATP Cooperative Agreements, issued
                                                                             better use. In most reports the subject programs were
              by the Department.
                                                                             not considered major programs; thus the audits
                                                                             involved limited transaction and compliance testing
              We examined 149 audit reports during this semian­
                                                                             against laws, regulations, and grant terms and condi­
              nual period to determine whether they contained any
                                                                             tions. The 18 reports with Commerce findings are
              audit findings related to Department programs. For
                                                                             listed in Appendix B-1. (Regional Offices of Audits)
              67 of these reports, the Department acts as oversight
              agency and monitors the audited entity’s compliance
              with the OMB Circular A-133 or NIST’s program-
              specific reporting requirements. The other 82 reports
              are from entities for which other federal agencies have
              oversight responsibility. We identified 18 with find­
              ings related to the Department of Commerce.




                                                                        48
DOC OIG SAR 11-07.qxd   11/27/07    1:37 PM    Page 49




                 OFFICE OF INSPECTOR GENERAL


              T    he mission of the Office of Inspector General is to promote economy, efficiency, and effectiveness and
                   detect and prevent waste, fraud, abuse, and mismanagement in the programs and operations of the U.S.
              Department of Commerce. Through its audits, inspections, performance evaluations, and investigations, OIG
              proposes innovative ideas and constructive solutions that lead to positive changes for the Department. By
              providing timely, useful, and reliable information and advice to departmental officials, the administration, and
              Congress, OIG’s work helps improve Commerce management and operations as well as its delivery of services
              to the public.




              Office of Investigations                                         Court for the Northern District of Georgia to 30
                                                                               months’ imprisonment followed by 3 years of super­
                                                                               vised release, and ordered to pay a $5,000 fine and
              During this semiannual period, the Office of
                                                                               restitution in the amount of $37,388.20. (Atlanta
              Investigations continued to pursue allegations of
                                                                               Field Office)
              fraud, waste, and abuse affecting Commerce pro­
              grams and operations, and other cases of corruption
              and fraud that negatively impacted the Department,
              the federal government, or U.S. taxpayers. The inves­            NOAA Employee Pleads Guilty to Credit
              tigations highlighted below are representative of our            Card Theft
              accomplishments during the past 6 months.
                                                                               On August 15, 2007, a former NOAA employee
                                                                               pleaded guilty to theft of government property for
                                                                               charging close to $4,000 in personal purchases to a
              Jury Finds Former Census Employee                                government credit card. An OIG investigation found
              Guilty of Workers’ Compensation Fraud                            that over a 3-week period in December 2006,
                                                                               15 transactions totaling $3,938.30 were made on the
              In April 2007, a former Census field representative was          employee’s government purchase card for items such
              convicted of four counts of making false statements to           as cigarettes, beer, gift cards, CDs, video games, and
              collect benefits for work-related injuries sustained in a        a television. All the purchases occurred at vendors
              1994 automobile accident, after an OIG investigation             located near his residence or near his work site in
              revealed she had failed to report more than $40,000 in           Pascagoula, Mississippi, and several of the transac­
              earnings from a dog kennel business on annual certifi­           tions were captured on store surveillance tapes. The
              cations submitted to the Department of Labor’s Office            defendant is scheduled for sentencing in U.S. District
              of Workers’ Compensation Programs. On July 12,                   Court for the Southern District of Mississippi in
              2007, the defendant was sentenced in U.S. District               November 2007. (Denver Resident Office)




                                                                          49
DOC OIG SAR 11-07.qxd    11/27/07     1:37 PM   Page 50




              Office of Inspector General                                              September 2007—Semiannual Report to Congress




              Former BIS Investigator Indicted for
              Misuse of Law Enforcement Database
              A former criminal investigator in the Office of
              Export Enforcement was indicted on September 19,
              2007, in the Northern District of California on one
              count of unlawfully obtaining information from a
              government computer and one count of making false
              statements after an OIG investigation established
              he had accessed the Treasury Enforcement and
              Communication System (TECS) 163 times over a
              2-month period in order to track the whereabouts of
              a former girlfriend. TECS is a secure, password-pro­
              tected system designed to identify individuals
              suspected of or involved in violations of federal law,
              and permit direct communications between Treasury
              law enforcement offices and other federal, state, and
              local law enforcement agencies. The former special
              agent also used the database to track the movements
              of members of the woman’s family, and made harass­
              ing and life-threatening remarks to her, threatening
              to have her deported. When questioned by OIG
              investigators and his supervisors, he lied about the
              number of times he had accessed the investigative
              database for personal reasons. The defendant was
              scheduled for arraignment in October 2007. (Atlanta           Arrests and Convictions Continue in
              Field Office)                                                 International Telemarketing Fraud Case
                                                                            For the past 4 years, we have been investigating a
              ATP Award Recipient Indicted and                              major telemarketing fraud scheme based in Costa
                                                                            Rica that was perpetrated by callers identifying
              Assets Seized
                                                                            themselves as employees of the Commerce
                                                                            Department and other federal agencies, who told
              On June 13, 2007, the recipient of a $2 million
                                                                            victims they had won huge cash prizes in a national
              Advanced Technology Program award was indicted
                                                                            lottery. In order to secure their winnings, victims
              for program fraud in the Southern District of New
                                                                            were instructed to use commercial wire transfer serv­
              York, based on the results of an OIG investigation
                                                                            ices to send payments of $1,500 to $4,500 to Costa
              that found nearly $400,000 in project funds had
                                                                            Rica. The investigation is an integral part of the
              been diverted to the defendant’s personal use. On
                                                                            Department of Justice’s Operation Global Con, a
              June 25, 2007, a superseding indictment was filed,
                                                                            massive international fraud investigation involving
              adding an asset forfeiture clause seeking $390,000
                                                                            nearly 3 million victims and more than $1 billion
              and the apartment the defendant used as both a resi­
                                                                            dollars in fraud worldwide.
              dence and a place of business. OIG agents served a
              seizure warrant the following day and recovered an
                                                                            Since its inception, our investigation has resulted in a
              estimated $300,000 worth of computers and associ­
                                                                            total of 32 arrests and 20 convictions of participants
              ated electronic equipment allegedly purchased with
                                                                            in the scheme, as well as a payment of nearly
              federal funds. A trial date has not yet been set.
                                                                            $1.4 million in restitution from one defendant. (See
              (Atlanta Field Office)
                                                                            March 2007 Semiannual Report, page 61.) During
                                                                            this semiannual period, eight defendants were con­


                                                                       50
DOC OIG SAR 11-07.qxd   11/27/07     1:37 PM    Page 51




              September 2007—Semiannual Report to Congress                                                      Office of Inspector General



              victed on conspiracy and wire fraud charges in the                 Over $1,500 in Transit Benefits Recovered
              Western District of North Carolina. They all face                  from Former ITA Employee
              prison terms ranging from 5 to 20 years. In addition,
              eight more participants were arrested, and two                     As part of the joint investigation with GAO, an
              U.S. citizens were extradited from Costa Rica.                     undercover operation was conducted and Metrocheks
              (Atlanta Field Office)                                             worth $210 were purchased for $190 from an ITA
                                                                                 employee on her last day of work at the agency.
                                                                                 Although the case was declined for criminal prosecu­
              Joint Investigation with GAO Uncovers                              tion, administrative action was initiated to recoup the
              Violations of Federal Transit Benefits                             benefits she had fraudulently obtained and the for­
                                                                                 mer employee – who admitted selling Metrocheks on
              Program by Commerce Employees                                      multiple occasions – was compelled to reimburse the
                                                                                 government $1,577 from her lump sum annual leave
              The federal transit benefits program provides transit              payment. (Washington Field Office)
              benefits (e.g., Metrocheks) to government employees
              to encourage the use of public transportation for
                                                                                 USPTO Employee Sold Metrocheks on eBay
              commuting. Under the program currently in place at
              Commerce, employees may receive subsidies of up to
                                                                                 Our joint investigation also revealed that a USPTO
              $110 a month to cover their actual transportation
                                                                                 employee had sold more than $400 worth of federal­
              costs. Based on reports of program abuses at various
                                                                                 ly subsidized Metrocheks on eBay during a 2-week
              federal agencies, the Government Accountability
                                                                                 period in August 2006. The employee admitted mak­
              Office was asked to investigate allegations that feder­
                                                                                 ing the sales, but claimed he was unaware that his
              al employees in the National Capital region were
                                                                                 actions were prohibited. He agreed to make full resti­
              engaging in fraud related to the transit program.
                                                                                 tution to the agency and subsequently resigned his
              GAO teamed with a number of OIG organizations,
                                                                                 position at USPTO. (Washington Field Office)
              including our office, to pursue these charges. Our
              investigative work is ongoing, but we have already
              identified several Commerce employees involved in
              abuse of the program.                                              OIG Computer Crimes Unit Aids State
                                                                                 Law Enforcement Efforts
              Senior Official with Parking Space Collected
              More Than $1,200 in Metrocheks                                     In addition to pursuing investigations into IT securi­
                                                                                 ty breaches and criminal misuse of government
              OIG investigators determined that a senior official                computers at the Department, the Office of
              received $1,260 in transit benefits over a 10-month                Investigation’s Computer Crimes Unit regularly lends
              period, although he had been assigned and regularly                its technical expertise to fellow state and federal law
              used a parking space at the Commerce headquarters                  enforcement agencies, providing forensic media
              building during that time. In order to receive the peri­           analysis and support in connection with ongoing
              odic subsidy, an employee must complete a preprinted               investigations and other matters relating to
              certification form containing an explicit representation           Commerce employees and operations. During this
              that he or she has not been assigned a parking permit              semiannual period, the unit was again called upon to
              by a federal agency. Despite that condition, the official          provide such services in a variety of contexts.
              signed the certification on at least five occasions to col­
              lect transit benefits. Prior to the conclusion of our              In June 2007, the Fairfax County, Virginia, police
              investigation, he reimbursed the Department for the                requested OIG assistance to seize and examine gov­
              full cost of the Metrocheks he received. At the close of           ernment computer equipment assigned to a Census
              this semiannual period, additional administrative                  Bureau employee who had been arrested on a state
              action was pending. (Washington Field Office)                      homicide charge. OIG forensic analysis of the com­




                                                                            51
DOC OIG SAR 11-07.qxd    11/27/07     1:37 PM   Page 52




              Office of Inspector General                                    September 2007—Semiannual Report to Congress



              puters yielded valuable information for the police
              investigation, which is still in progress.

              As a member of the Maryland Internet Crimes
              Against Children Task Force, in August 2007 the unit
              provided assistance to the St. Mary’s County Sheriff ’s
              Office by analyzing a computer seized during the
              course of a child pornography investigation. Our
              forensic analysis revealed the presence of suspected
              pornographic material, including digital images of
              children from the suspect’s household, and the evi­
              dence was forwarded to the local authorities for use
              in their case. (Computer Crimes Unit)




              Other OIG Activities
              Testimony Before House Committee on
              Natural Resources
              During this semiannual period, OIG’s assistant
              inspector general for auditing appeared before the
              House Committee on Natural Resources to recap our
              2005 review of NOAA’s consultation process. Section
              7 of the Endangered Species Act requires federal
              agencies to consult with NOAA about any activity
              they plan to undertake that may affect listed species.
              Our review looked at NOAA’s process for rendering a
              biological opinion on the impacts of a California
              water project on endangered fish. We found that the
              agency deviated from its normal quality control prac­
              tices in developing the opinion and was criticized as
              having acted arbitrarily or inappropriately (see
              September 2005 Semiannual Report, page 21). The
              committee requested testimony on our work as part
              of its consideration of claims that modifications to a
              different water management project, operating in the
              Klamath River Basin, caused as many as 80,000
              salmon to die.




                                                                        52
DOC OIG SAR 11-07.qxd   11/27/07    1:37 PM    Page 53




              September 2007—Semiannual Report to Congress                                                    Office of Inspector General




              TABLES AND STATISTICS
              Statistical Overview




              Table 1. Investigative Statistical Highlights for this Period




              Audit Resolution and Follow-Up
              The Inspector General Act Amendments of 1988                    Department Administrative Order 213-5, Audit
              require us to present in this report those audits issued        Resolution and Follow-up, provides procedures for
              before the beginning of the reporting period (April 1,          management to request a modification to an approved
              2007) for which no management decision had been                 audit action plan or for a financial assistance recipient
              made by the end of the period (September 30, 2007).             to appeal an audit resolution determination. The fol-
              Six audit reports remain unresolved for this reporting          lowing table summarizes modification and appeal
              period (see page 60).                                           activity during the reporting period.




                                                                         53
DOC OIG SAR 11-07.qxd     11/27/07       1:37 PM      Page 54




              Office of Inspector General	                                                           September 2007—Semiannual Report to Congress




              Table 2. Audit Resolution Follow-up




              Table 3. Audit and Inspection Statistical Highlights for this Period




              * This number includes costs by state and local government auditors or independent public accountants.



              Table 4. Audits with Questioned Costs




              NOTES:
              1	
                 Four audit reports included in this table are also included among reports with recommendations that funds be put to better use
                 (see Table 5). However, the dollar amounts do not overlap.
              2	
                 In Category C, lines i and ii do not always equal the total line C because resolution may result in values greater than the
                 original recommendations.




                                                                                   54
DOC OIG SAR 11-07.qxd     11/27/07       1:37 PM      Page 55




              September 2007—Semiannual Report to Congress	                                                                   Office of Inspector General




              Table 5. Audits with Recommendations that Funds Be Put to Better Use




              NOTES:
              1	
                 Four audit reports included in this table are also included among reports with recommendations that funds be put to better use
                 (see Table 4). However, the dollar amounts do not overlap.
              2
                 In Category C, lines i and ii do not always equal the total line C because resolution may result in values greater than the
                 original recommendations.



              Definitions of Terms Used                                                 Recommendation that funds be put to better use:
                                                                                        an OIG recommendation that funds could be used
              in the Tables                                                             more efficiently if Commerce management took
                                                                                        action to implement and complete the recommenda­
              Questioned cost: a cost questioned by OIG because                         tion, including (1) reductions in outlays;
              of (1) an alleged violation of a provision of a law,                      (2) deobligation of funds from programs or opera­
              regulation, contract, grant, cooperative agreement,                       tions; (3) withdrawal of interest subsidy costs on
              or other agreement or document governing the                              loans or loan guarantees, insurance, or bonds;
              expenditure of funds; (2) a finding that, at the time                     (4) costs not incurred by implementing recommend­
              of the audit, such cost is not supported by adequate                      ed improvements related to Commerce, a contractor,
              documentation; or (3) a finding that an expenditure                       or a grantee; (5) avoidance of unnecessary expendi­
              of funds for the intended purpose is unnecessary                          tures identified in preaward reviews of contracts
              or unreasonable.                                                          or grant agreements; or (6) any other savings
                                                                                        specifically identified.
              Unsupported cost: a cost that, at the time of the
              audit, is not supported by adequate documentation.                        Management decision: management’s evaluation of
              Questioned costs include unsupported costs.                               the findings and recommendations included in the
                                                                                        audit report and the issuance of a final decision by
                                                                                        management concerning its response.




                                                                                   55
DOC OIG SAR 11-07.qxd    11/27/07     1:37 PM   Page 56




              Office of Inspector General                      September 2007—Semiannual Report to Congress




              Appendix A. Report Types This Period




              Appendix A-1. Performance Audits




              Appendix A-2. Financial Assistance Audits




                                                          56
DOC OIG SAR 11-07.qxd   11/27/07   1:37 PM    Page 57




              September 2007—Semiannual Report to Congress         Office of Inspector General




              Appendix A-3. Inspections and Evaluations




                                                             57

DOC OIG SAR 11-07.qxd     11/27/07      1:37 PM     Page 58




              Office of Inspector General                          September 2007—Semiannual Report to Congress




              Appendix B. Processed Audit Reports




              * Includes 29 ATP program-specific audits.




                                                              58
DOC OIG SAR 11-07.qxd     11/27/07      1:37 PM   Page 59




              September 2007—Semiannual Report to Congress          Office of Inspector General




              Appendix B-1. Processed Reports with Audit Findings




              * Counted as one audit report



                                                             59
DOC OIG SAR 11-07.qxd    11/27/07     1:37 PM   Page 60




              Office of Inspector General                                              September 2007—Semiannual Report to Congress




              Audits Unresolved for More                                    performed in accordance with specifications of the
                                                                            task order. We found that the firm failed to comply
              Than 6 Months                                                 with numerous contract and federal requirements,
                                                                            which caused us to question more than $10.7 million
              Census Bureau                                                 in direct labor and other reimbursable costs.

              ITS Services, Inc. In March 2005, we reported that            We have suspended audit resolution on both of these
              3 of the 32 task orders awarded under an IT services          contract audits pursuant to an agreement with Census.
              contract were audited to determine whether the costs
              billed by the firm were reasonable, allowable, and
              allocable under contract terms and conditions and             NIST
              federal regulations. We found that the firm had failed
              to comply with numerous contract and federal                  Computer Aided Surgery Inc., New York. An OIG
              requirements, and questioned more than $8.5 mil­              audit of this NIST cooperative agreement (see
              lion in direct labor and reimbursable costs.                  September 2004 issue, page 35, and March 2005
                                                                            issue, page 33—ATL-16095) questioned costs total­
              Computer & High Tech Management, Inc. We                      ing $547,426 in inappropriately charged rent,
              reported in our September 2005 Semiannual Report              utilities, and certain salary, fringe benefit, and other
              (page 14) the results of audits of 2 of the 21 task           expenses because these costs were unallowable, in
              orders for another firm providing IT services to              excess of budgetary limits, or incorrectly categorized.
              Census. We sought to determine whether the firm had           This audit remains unresolved because we requested
              complied with contract terms and conditions and fed­          that NIST postpone its submission of an audit reso­
              eral regulations and had billed Census for work               lution proposal.



              REPORTING REQUIREMENTS
              The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual reports. The
              requirements are listed below and indexed to the applicable pages of this report.




                                                                       60
DOC OIG SAR 11-07.qxd   11/27/07    1:37 PM    Page 61




              September 2007—Semiannual Report to Congress                                                   Office of Inspector General




              Section 4(a)(2): Review of Legislation                          Section 5(a)(10): Prior Audit Reports
              and Regulations                                                 Unresolved
              This section requires the inspector general of each             This section requires a summary of each audit report
              agency to review existing and proposed legislation              issued before the beginning of the reporting period
              and regulations relating to that agency’s programs              for which no management decision has been made by
              and operations. Based on this review, the inspector             the end of the reporting period (including the date
              general is required to make recommendations in the              and title of each such report), an explanation of why
              semiannual report concerning the impact of such leg­            a decision has not been made, and a statement con­
              islation or regulations on the economy and efficiency           cerning the desired timetable for delivering a decision
              of the management of programs and operations                    on each such report. There were one NIST and five
              administered or financed by the agency or on the pre­           Census reports more than 6 months old.
              vention and detection of fraud and abuse in those
              programs and operations. Comments concerning leg­
              islative and regulatory initiatives affecting Commerce          Section 5(a)(11): Significant Revised
              programs are discussed, as appropriate, in relevant
              sections of the report.
                                                                              Management Decisions
                                                                              This section requires an explanation of the reasons
              Section 5(a)(3): Prior Significant                              for any significant revision to a management decision
                                                                              made during the reporting period. Department
              Recommendations Unimplemented                                   Administrative Order 213-5, Audit Resolution and
                                                                              Follow-up, provides procedures for revising a man­
              This section requires identification of each significant        agement decision. For performance audits, OIG
              recommendation described in previous semiannual                 must be consulted and must approve in advance any
              reports for which corrective action has not been com­           modification to an audit action plan. For financial
              pleted. Section 5(b) requires that the Secretary                assistance audits, OIG must concur with any decision
              transmit to Congress statistical tables showing the             that would change the audit resolution proposal in
              number and value of audit reports for which no final            response to an appeal by the recipient. The decisions
              action has been taken, plus an explanation of the rea­          issued on the four appeals of audit-related debts were
              sons why recommended action has not occurred,                   finalized with the full participation and concurrence
              except when the management decision was made                    of OIG.
              within the preceding year.

              To include a list of all significant unimplemented rec­
              ommendations in this report would be duplicative.
                                                                              Section 5(a)(12): Significant
              Information on the status of any audit recommenda­              Management Decisions with Which
              tions can be obtained through OIG’s Office of Audits.           OIG Disagreed
                                                                              This section requires information concerning any
              Sections 5(a)(5) and 6(b)(2): Information                       significant management decision with which
              or Assistance Refused                                           the inspector general disagrees. Department
                                                                              Administrative Order 213-5 provides procedures for
              These sections require a summary of each report to              elevating unresolved audit recommendations to high­
              the Secretary when access, information, or assistance           er levels of Department and OIG management,
              has been unreasonably refused or not provided. There            including their consideration by an Audit Resolution
              were no instances during this semiannual period and             Council. During this period no audit issues were
              no reports to the Secretary.                                    referred to the council.




                                                                         61
DOC OIG SAR 11-07.qxd   11/27/07    1:37 PM    Page 62




                 TYPES OF OIG WORK PRODUCTS

              The various kinds of audits, evaluations, inspections, and investigations at our disposal enable the IG's office
              to assess Commerce programs and operations from a range of perspectives, and allow us to provide program
              managers with reviews and recommendations that are either narrowly focused or comprehensive, as needed, to
              aid them in ensuring the most efficient and effective use of taxpayer dollars.


              AUDITS                                                           INSPECTIONS
              Performance Audits address the efficiency, effective­            Inspections are reviews of an activity, unit, or office,
              ness, and economy of the Department's programs,                  or a contractor or other nonfederal entity that
              activities, and information technology systems. They             receives funds from the Department. They focus on
              may check a unit's compliance with laws and regula­              an organization, not a whole program, and are often
              tions, and evaluate its success in achieving program             designed to give agency managers timely and useful
              objectives. They may also involve reviewing the                  information about operations, including current and
              Department's financial assistance awards by assessing            foreseeable problems.
              an award recipient’s compliance with laws, regula­
              tions, and award terms; allowance of costs; and the
              degree to which projects achieved intended results.
                                                                               EVALUATIONS
              Financial Audits determine whether (1) a reporting
              entity's financial statements are presented fairly and           Program Evaluations review specific management
              in accordance with generally accepted accounting                 issues, policies, or programs.
              principles; (2) the entity has an internal control struc­
              ture that provides reasonable assurance of achieving             Systems Evaluations review system development,
              the control objectives set forth by OMB; and (3) the             acquisitions, operations, and policy, focusing on
              entity complied with laws and regulations that could             computer systems and other technologies.
              have a direct and material effect on the financial
              statements, the Federal Financial Management
              Improvement Act, and other laws and regulations.
                                                                               INVESTIGATIONS
              Attestation Engagements involve examining,
              reviewing, or performing agreed-upon procedures on               Investigations are conducted based on alleged or sus­
              a subject matter or an assertion about a subject mat­            pected wrongdoing by Department employees,
              ter and reporting the results. Attestation engagements           contractors, recipients of financial assistance, and
              can have a broad range of financial or nonfinancial              others responsible for handling federal resources.
              focuses, such as an entity’s compliance with laws and            Investigations that expose violations of Department
              regulations; management’s discussion and analysis                rules and regulations or acts of fraud committed
              presentations; and allowability and reasonableness of            against the U.S. government can result in administra­
              final grant and contract costs.                                  tive sanctions and/or criminal or civil prosecution.




                                                                          62
